<html>
<title> - H.R. 3480 and H.R. 3606</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]


 
                        H.R. 3480 and H.R. 3606
=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 7, 2002

                               __________

                           Serial No. 107-90

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov





                           U.S. GOVERNMENT PRINTING OFFICE
78-048                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                       Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                   KEN CALVERT, California, Chairman
            ADAM SMITH, Washington, Ranking Democrat Member

 Richard W. Pombo, California        George Miller, California
George Radanovich, California        Peter A. DeFazio, Oregon
Greg Walden, Oregon,                 Calvin M. Dooley, California
  Vice Chairman                      Grace F. Napolitano, California
Michael K. Simpson, Idaho            James P. McGovern, Massachusetts
J.D. Hayworth, Arizona               Hilda L. Solis, California
C.L. ``Butch'' Otter, Idaho          Brad Carson, Oklahoma
Tom Osborne, Nebraska
Jeff Flake, Arizona



                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 7, 2002....................................     1

Statement of Members:
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin...............................................     8
        Prepared statement on H.R. 3480..........................    11
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     2
        Prepared statement on H.R. 3480 and H.R. 3606............     2

Statement of Witnesses:
    Daigle, Doug, Hypoxia Program Director, Mississippi River 
      Basin Alliance.............................................    28
        Prepared statement on H.R. 3480..........................    30
    Hirsch, Dr. Robert M., Associate Director for Water, U.S. 
      Geological Survey, U.S. Department of the Interior.........     5
        Prepared statement on H.R. 3480..........................     6
    Keys, John W. III, Commissioner, Bureau of Reclamation, U.S. 
      Department of the Interior.................................     3
        Prepared statement on H.R. 3480..........................     4
    McLachlan, John A., Ph.D., Weatherhead Distinguished 
      Professor of Environmental Studies, Professor of 
      Pharmacology, Director, Center for Bioenvironmental 
      Research, Tulane and Xavier Universities...................    36
        Prepared statement on H.R. 3480..........................    38
    McMillen, Morton D., Principal Engineer, Montgomery Watson 
      Harza......................................................    17
        Prepared statement on H.R. 3606..........................    19
    Schnoor, Jerald L., Ph.D., P.E., DEE, Professor, Civil and 
      Environmental Engineering, Co-Director, Center for Global 
      and Regional Environmental Research, The University of Iowa    24
        Prepared statement on H.R. 3480..........................    26
    Stoerker, Holly, Executive Director, Upper Mississippi River 
      Basin Association..........................................    32
        Prepared statement on H.R. 3480..........................    34

Additional materials supplied:
    Foster, The Honorable M.J. ``Mike'', Governor, State of 
      Louisiana, et al., Letter submitted for the record.........    13
    Hulshof, The Honorable Kenny, and The Honorable Leonard 
      Boswell. Letter submitted for the record on H.R. 3480......    10


LEGISLATIVE HEARING ON H.R. 3480, TO PROMOTE DEPARTMENT OF THE INTERIOR 
 EFFORTS TO PROVIDE A SCIENTIFIC BASIS FOR THE MANAGEMENT OF SEDIMENT 
AND NUTRIENT LOSS IN THE UPPER MISSISSIPPI RIVER BASIN; AND H.R. 3606, 
     TO AUTHORIZE THE BUREAU OF RECLAMATION TO PARTICIPATE IN THE 
    REHABILITATION OF THE WALLOWA LAKE DAM IN OREGON, AND FOR OTHER 
                               PURPOSES.

                              ----------                              


                        Thursday, March 7, 2002

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room 1334, Longworth House Office Building, Hon. Greg Walden, 
presiding.
    Mr. Walden. Good morning. We commence the hearing on H.R. 
3480, to promote the Department of the Interior efforts to 
provide a scientific basis for the management of sediment and 
nutrient loss in the Upper Mississippi Basin and H.R. 3606, to 
authorize the Bureau of Reclamation to participate in the 
rehabilitation of the Wallowa Lake Dam in Oregon, and for other 
purposes.
    Mr. Walden. Under Rule 4B of the Committee rules, any oral 
opening statements at hearings are limited to the Chairman and 
the Ranking Minority Member. If other members have statements, 
they can be included in the hearing record under unanimous 
consent, if any members disagree with that--good.
    [Laughter.]
    Mr. Walden. The Chairman will recognize the Ranking 
Minority Member, Mr. Kind, when he comes to give his opening 
statement, but I understand that several of the witnesses are 
on pretty tight schedules this morning, so, in concurrence with 
the minority staff, we have agreed to proceed, and I will do 
that.

STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OREGON

    Mr. Walden. So what I'd like to do now is give a brief 
opening statement and submit my full statement for the record.
    Today, we hold a legislative hearing on two bills, as I 
have mentioned. The first is the Upper Mississippi River Basin 
Protection Act of 2001, which provides for the Department of 
Interior and U.S. Geological Survey to supplement, coordinate, 
and manage data collection on sediments and nutrients in the 
Upper Mississippi River Basin and use the data to perform 
computer modeling to provide the baseline data and modeling 
tools needed to make scientifically sound and cost-effective 
management decisions.
    The other legislation deals with the issue in Wallowa 
County Oregon of the Wallowa Lake Dam, which was built in 1918, 
I believe, and it is about 35 feet tall. It was reconstructed 
in the 1920's. In 1996, the Wallowa Lake Dam was listed as a 
high-hazard structure by the Oregon Water Resources Department 
of Dam Safety.
    A sudden failure and release of water would most certainly 
result in loss of life and property, as well as severe 
environmental and economic damage to the communities that lie 
downstream. In fact, the dam has been holding water at less 
than the maximum authorized pool level since 1970.
    So this is one that, clearly, we are trying to find a way 
to get some help on, and I know others have been assisting in 
that way as well.
    In addition, the improvements that they have recommended 
here would help both improve water quality, streamflows and 
meet other problems in the local area, including trust 
obligations to the Nez Perce Tribe.
    So I will put my full statement into the record.
    [The prepared statement of Mr. Walden follows:]

  Statement of The Honorable Greg Walden, Vice Chair, Subcommittee on 
              Water and Power, on H.R. 3480 and H.R. 3606

    Today we will hold a legislative hearing on two bills,
    H.R. 3480, the Upper Mississippi River Protection Act of 2001, and
    H.R. 3603, the Wallowa Lake Dam Rehabilitation and Water Management 
Act of 2001
    First, H.R. 3480, the Upper Mississippi River Basin Protection Act 
of 2001, provides for the Department of the Interior, U. S. Geological 
Survey to supplement, coordinate and manage data collection on 
sediments and nutrients in the Upper Mississippi River Basin and use 
the data to perform computer modeling to provide the baseline data and 
modeling tools needed to make scientifically-sound and cost-effective 
river management decisions. The legislation includes a provision 
requiring landowner permission prior to disseminating information from 
monitoring stations located on private lands to protect the privacy of 
individual landowners. Finally, it provides for the National Research 
Council of the National Academy of Sciences to conduct a comprehensive 
water resources assessment of the Upper Mississippi River Basin.
    Second, H.R. 3606, the Wallowa Lake Dam Rehabilitation and Water 
Management Act of 2001.
    Before we hear from our witnesses, I now recognize the gentleman 
from Wisconsin, Mr. Kind, the first bill's sponsor to further discuss 
the bill.
                                 ______
                                 
    Mr. Walden. And with that I would like to welcome our 
witnesses, Mr. Keys and Dr. Hirsch, and would welcome your 
comments at this time.
    We will start with Mr. Keys. Good morning and welcome to 
the Committee.

    STATEMENT OF JOHN W. KEYS, III, COMMISSIONER, BUREAU OF 
          RECLAMATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Keys. Mr. Chairman, it is a pleasure to be here and 
talk with you about the H.R. 3606, the Wallowa Lake Dam 
Rehabilitation and Water Management Act. I would ask that my 
full written statement be made part of the record for this 
hearing.
    Mr. Walden. Without objection.
    Mr. Keys. Mr. Chairman, H.R. 3606 would authorize 
Reclamation to participate in the Wallowa Lake Dam 
Rehabilitation and Water Management Program in Oregon, near 
Joseph, Oregon. The proposed bill sets out an 80/20 cost-share 
arrangement for this program, with the Government's share of 
$32 million to be funded by the Bureau of Reclamation.
    While we believe that there are merits to the proposed 
program, the Department does not support H.R. 3606.
    Wallowa Lake Dam is a privately owned dam constructed in 
1918 and raised in 1929. It is owned and operated by the 
Associated Ditch Companies in Oregon. Dam safety deficiencies 
have been identified by the U.S. Army Corps of Engineers and 
the Oregon Water Resources Department. Associated Ditch 
Companies organized and led a partnership composed of the 
Grande Ronde Model Watershed Council, Reclamation, and other 
local, county and State agencies in developing the four-phased 
plan for the program or the act. They did that to address dam 
safety deficiencies and to the correction of these deficiencies 
to encourage larger environmental issues in the Wallowa River 
Basin.
    The proposed act would begin construction in Fiscal Year 
2002 and continue through the Fiscal Year 2007, at an estimated 
cost of almost $39 million. The act calls for the Federal 
Government to provide $32 million of that program cost.
    While we fully understand the importance of ensuring the 
safety of the Wallowa Lake Dam, this damn is not a Federal 
project. It is a privately owned and operated facility, and it 
falls under the Dam Safety Program of the Oregon Department of 
Water Resources.
    Reclamation believes that the Wallowa Lake Dam program is 
worthwhile, with potential numerous benefits to the 
environment, to the fish and so forth and to the dam itself. 
However, we are concerned about the proposed Federal role in 
the project.
    Despite the very high Federal cost share for the project, 
under H.R. 3606, there is no Federal interest in the dam and 
none is provided by the bill. Moreover, there is no provision 
for repayment by project beneficiaries in accordance with 
Reclamation law.
    Finally, Reclamation was not involved in the preparation of 
the Phase I engineering document defined in the bill, and we 
have not had the opportunity to review the designs of that 
proposed plan.
    Mr. Chairman, we are also concerned that Reclamation's 
participation in this program would adversely impact ongoing 
projects and operations of Reclamation. H.R. 3606 would 
authorize the use of Reclamation funds for a non-Federal 
purpose. Reclamation funds must be targeted to perform 
essential functions at our Federal projects, such as the Bureau 
of Reclamation's own Safety of Dams program, security of our 
facilities, operation and maintenance, resource management and 
construction.
    In summary, the Department of Interior cannot, therefore, 
support H.R. 3606. Mr. Chairman, that concludes my oral 
comments. I would certainly be glad to answer any questions 
that you might have.
    [The prepared statement of Mr. Keys follows:]

 Statement of John W. Keys, III, Commissioner, Bureau of Reclamation, 
             U.S. Department of the Interior, on H.R. 3606

    Mr. Chairman and Members of the Subcommittee: I am John Keys, 
Commissioner of the Bureau of Reclamation. I appreciate the opportunity 
to present the Department's views on H.R. 3606, a bill that would 
authorize Reclamation to participate in the Wallowa Lake Dam 
Rehabilitation and Water Management Program in Oregon. H.R. 3606 sets 
out an 80/20 cost share for this Program, under which the Federal 
Government would pay $32 million funded through the Bureau of 
Reclamation.
    While we believe there are merits to the proposed program, the 
Department does not support H.R. 3606.
    Wallowa Lake Dam is a privately-owned dam constructed in 1918 and 
raised in 1929, and is owned and operated by the Associated Ditch 
Companies, Inc. (ADC). Dam safety deficiencies have been identified by 
the US Army Corps of Engineers and Oregon Water Resources Department. 
ADC, in conjunction with the Grande Ronde Model Watershed Council, 
Reclamation, and other local, state, and Federal agencies, developed 
the Wallowa Lake Dam Rehabilitation and Water Management Program to 
address dam safety deficiencies and to tie correction of those 
deficiencies to larger environmental issues in the Wallowa River Basin.
    The Wallowa Lake Dam Rehabilitation and Water Management Program is 
proposed to begin in Fiscal Year 2002 and continue through Fiscal Year 
2007, at an estimated total cost of $38,800,000. Under H.R. 3606, the 
Federal Government would provide funding of $32,000,000.
    Reclamation itself has an inventory of aging dams--and the 
responsibility to ensure the safety and reliability of Reclamation dams 
to protect the downstream public. Dam safety is one of Reclamation's 
highest priorities. I would like to give you a sense of the scope of 
our dam safety responsibilities: the Bureau has reservoirs impounded by 
457 dams and dikes. Of these structures, 362 dams and dikes, located at 
252 different project facilities, would likely cause loss of life if 
they were to fail. Approximately 50 percent of Reclamation's dams were 
built between 1900 and 1950, and about 90 percent of the dams were 
built before currently-used state of the art design and construction 
practices. Aging Reclamation-owned dams, which lack state-of-the-art 
structural reliability features, require Reclamation to conduct 
extensive ongoing risk management activities to assure safe dam 
performance and protect the public from unreasonable risk.
    While we fully understand the importance of ensuring the safety of 
Wallowa Lake Dam, this dam is not a Federal project. It is privately 
owned and operated, and falls under a dam safety program of the Oregon 
Department of Water Resources. Reclamation believes the Wallowa Lake 
Dam Rehabilitation and Water Management Program is worthwhile, with 
potentially numerous benefits; however we are concerned about the 
proposed Federal role in this project. Despite the very high Federal 
cost share for the project, under H.R. 3606 there is currently no 
Federal interest in the dam, and none is provided by the bill; 
moreover, there is no provision for repayment by project beneficiaries 
in accordance with reclamation law, and, finally, Reclamation was not 
involved in the preparation of the ``Phase I'' engineering document 
defined in section 2(3) of the bill nor have we reviewed it.
    We are also concerned that Reclamation's participation in this 
program would adversely impact ongoing projects and operations. H.R. 
3606 would authorize the use of Reclamation funds for a non-Federal 
purpose. Reclamation funds must be targeted to perform essential 
functions at our Federal projects, such as security at BOR dams and 
reservoirs, operations and maintenance (O&M), resource management, dam 
safety, or construction. The Department cannot, therefore, support H.R. 
3606.
                                 ______
                                 
    Mr. Walden. Thank you, Mr. Keys.
    Dr. Hirsch?

 STATEMENT OF ROBERT M. HIRSCH, Ph.D., ASSOCIATE DIRECTOR FOR 
 WATER, U.S. GEOLOGICAL SURVEY, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Hirsch. Thank you, Mr. Chairman. Mr. Chairman and 
members of the Subcommittee, thank you for the opportunity to 
provide the views of the Department of Interior on H.R. 3480, 
the Upper Mississippi River Basin Protection Act of 2001.
    The administration agrees with the goals of H.R. 3480, and 
we especially appreciate the bipartisan efforts of the sponsors 
of the bill to address this important issue. We also appreciate 
the emphasis that the bill places on sound science. However, 
the administration has concerns about the financial resources 
that would be required for the U.S. Geological Survey to carry 
out the provisions of the bill.
    The bill directs the Secretary of the Interior, acting 
through the United States Geological Survey, to provide a 
scientific basis for the management of sediment and nutrient 
loss in the Upper Mississippi River Basin. This would be 
accomplished through a sediment and nutrient monitoring 
network; research and modeling that relates to sediment and 
nutrient losses to landscape, land use and land management 
characteristics; technical assistance regarding data 
collection; and dissemination of information to managers, 
scientists and the public.
    The role identified in the bill for the USGS is consistent 
with our leadership role in monitoring, interpretation, 
research, and assessment of the health and status of the water 
and biological resources of the Nation. As the Nation's largest 
water, earth, and biological science and civilian mapping 
agency, the USGS has been active in a number of programs of 
great significance to the Upper Mississippi River Basin. Let me 
briefly review these ongoing programs.
    The USGS is an active participant in the Mississippi River-
Gulf of Mexico Watershed Nutrient Task Force. This Task Force, 
which has representation from Federal agencies, and State and 
Tribal Governments in the basin, is charged with fulfilling 
requirements of The Harmful Algal Bloom and Hypoxia Research 
and Control Act of 1998, by preparing a plan for controlling 
hypoxia in the Northern Gulf of Mexico, and improving water 
quality throughout the Mississippi River Basin.
    The USGS has a lead role in the preparation of a science 
report of the task force that defines what is currently known 
about nutrient sources and transport in the Mississippi River 
Basin. This is a baseline from which future water quality 
trends and improvements will be made.
    The USGS has offices in each of the five Upper Mississippi 
River Basin States. These offices have a long history of 
conducting water quality and quantity monitoring and assessment 
activities within the basin. Existing USGS programs involved in 
this effort include the National Water Quality Assessment 
Program, the National Stream Quality Accounting Network, the 
National Streamflow Information Program, the Toxic Substances 
Hydrology Program, the Water Resources Research Act Program, 
and the Cooperative Water Program, as well as reimbursable 
programs that we operate, such as the Long-Term Resource 
Monitoring Program funded by the U.S. Army Corps of Engineers.
    For the past 20 years, the USGS Upper Midwest Environmental 
Sciences Center, known as UMESC, in La Crosse, Wisconsin, has 
provided research support in the Upper Mississippi River Basin 
to Department of Interior Agencies and to the U.S. Army Corps 
of Engineers to address complex issues of navigation, 
contaminants and other natural resource concerns.
    More recently, the Center has developed an active 
partnership with the USDA Natural Resources Conservation 
Service on sediment and nutrient concerns of the agencies. For 
15 years, the UMESC has provided the scientific and management 
leadership for the Long-Term Resource Monitoring Program of the 
U.S. Army Corps of Engineers' Environmental Management Program 
for the Upper Mississippi River Basin main stem rivers. This 
monitoring program of water quality, fisheries, vegetation, 
land use, and other critical indicators of river health is the 
largest main stem river assessment program in the Nation.
    H.R. 3480 acknowledges the need to use all existing 
monitoring and science programs of the USGS and others while 
identifying information needs in the Upper Mississippi River 
Basin. These existing programs can help to define how water 
quality conditions are affected by human activities and natural 
climatic variations. This is a necessary step in understanding 
how management actions will improve water quality conditions in 
the Mississippi River Basin.
    The provisions of H.R. 3480 are consistent with Gulf of 
Mexico Watershed Nutrient Task Force recommendations with 
regard to science and management activities. The proposed 
legislation describes a program consistent with current USGS 
activities. The goals of the bill are commendable, and the bill 
contains provisions that are well within the scope and 
expertise of the USGS. However, funding for the activities of 
H.R. 3480 is not included in the Fiscal Year 2003 President's 
budget proposal.
    One concern we would like to express is that we believe 
that the cost-sharing provisions of this bill should conform 
with other similar programs, such as the USGS Cooperative Water 
Program, which requires a dollar-per-dollar match of Federal 
and non-Federal funds.
    On a personal note, I would like to say that I have had the 
good fortune to participate in the USGS research crews on the 
Upper Mississippi River, and I am very proud of the monitoring, 
modeling, and research that we have conducted, as the 
Mississippi River and its basin is one of the Nation's unique 
natural resources. Developing the scientific knowledge that is 
needed to help manage this resource is a welcome challenge for 
the scientists at the USGS.
    Thank you, Mr. Chairman, for the opportunity to present 
this testimony, and I will be pleased to answer any questions 
you or other members might have.
    [The prepared statement of Mr. Hirsch follows:]

   Statement of Robert M. Hirsch, Associate Director for Water, U.S. 
    Geological Survey, U.S. Department of the Interior, on H.R. 3480

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to provide the views of the Department of the Interior 
(DOI) on H.R. 3480, the ``Upper Mississippi River Basin Protection Act 
of 2001.'' The Administration agrees with the goals of H.R. 3480; we 
especially appreciate the bi-partisan efforts of the sponsors of the 
bill to address this important issue and emphasis within the bill on 
the need for reliance on sound science. The Administration has concerns 
about the financial resources that would be required for the United 
States Geological Survey (USGS) to carry out this bill in the context 
of the availability of resources overall for Administration programs. 
Further, some provisions of the bill may be duplicative of existing 
Federal and State programs.
    The bill directs the Secretary of the Interior, acting through the 
United States Geological Survey, to provide a scientific basis for the 
management of sediment and nutrient loss in the Upper Mississippi 
River. This would be accomplished through establishing a sediment and 
nutrient monitoring network that builds on existing monitoring 
activities; conducting research and modeling that relates sediment and 
nutrient losses to landscape, land use and land management 
characteristics; providing technical assistance regarding use of 
consistent and reliable methods for data collection; and instituting a 
program to disseminate new information to managers, scientists and the 
public.
    The role identified for DOI in this bill is consistent with USGS's 
leadership role in monitoring, interpretation, research, and assessment 
of the health and status of the water and biological resources of the 
Nation. As the Nation's largest water, earth, and biological science, 
and civilian mapping agency, USGS conducts the largest single non-
regulatory ambient water-quality monitoring activity in the Nation. 
Furthermore, the USGS has been active in a number of programs and 
investigations that involve the Upper Mississippi River Basin (UMRB) 
specifically.
    The USGS is an active participant in the Mississippi River, Gulf of 
Mexico Watershed Nutrient Task Force. This Task Force, which has 
representation from Federal agencies, and State and Tribal governments 
in the basin, is charged with fulfilling requirements of The Harmful 
Algal Bloom and Hypoxia Research and Control Act of 1998, by preparing 
a plan for controlling hypoxia in the Northern Gulf of Mexico, and 
shares a common goal of improving water-quality conditions in the 
Mississippi River Basin.
    The USGS also has had a lead role in the preparation of a science 
report that uses available water-quality information to define a recent 
baseline condition for nutrient sources and loads in the Mississippi 
River Basin--a baseline from which future water-quality trends and 
improvements will be measured. This report identifies those parts of 
the Upper Mississippi River Basin that have the highest nutrient 
yields.
    The USGS has offices in each of the five Upper Mississippi River 
Basin States. These offices have a long history of conducting water-
quantity and water-quality monitoring and assessment activities within 
the basin. Existing USGS programs include the National Water-Quality 
Assessment Program, the National Stream Quality Accounting Network, the 
National Streamflow Information Program, the Toxic Substances Hydrology 
Program, the Water Resources Research Act Program, and the Cooperative 
Water Program, as well as reimbursable programs we operate, such as the 
Long-Term Resource Monitoring Program funded by the U.S. Army Corps of 
Engineers. These programs currently provide information on nutrients 
and sediment within the basin.
    For the past 20 years, the USGS Upper Midwest Environmental 
Sciences Center (UMESC) in La Crosse, Wisconsin has provided research 
support in the Upper Mississippi River Basin to Department of the 
Interior agencies and the U.S. Army Corps of Engineers to address 
complex issues of navigation, contaminants, and other natural resource 
concerns. More recently, this Center has developed an active 
partnership with the USDA Natural Resources Conservation Service on 
sediment and nutrient concerns of the agencies. For 15 years, the UMESC 
has provided the scientific and management leadership for the Long-term 
Resource Monitoring Program of the U.S. Army Corps of Engineer's 
Environmental Management Program for the Upper Mississippi River Basin 
main stem rivers. This monitoring program of water quality, fisheries, 
vegetation, land use, and other critical indicators of river health is 
the largest main stem river assessment program in the Nation.
    The USGS conducts monitoring activities in cooperation with many 
States and local governments in the Upper Mississippi River Basin. The 
USGS is also active in hydrologic and water-quality studies in the 
Lower Mississippi River Basin. The continuity of research is important 
from the standpoint of developing a complete assessment of the entire 
Mississippi River basin. To this end, the USGS has begun a partnership 
this year with the Long-term Estuary Assessment Group, centered at 
Tulane University.
    H.R. 3480 acknowledges the need to use all existing monitoring and 
science programs of the USGS and others while identifying information 
needs in the Upper Mississippi River Basin. Existing programs and 
development of models are tools for defining how water-quality 
conditions are affected by human activities and natural climatic 
variations and how management actions may best improve water-quality 
conditions at a wide range of scales from small watersheds to the 
Mississippi River Basin.
    Furthermore, the bill would authorize integration of activities 
conducted in cooperation with other Federal partners and would 
emphasize and expand the existing USGS coordination and assistance to 
State monitoring programs. For example, the U.S. Fish and Wildlife 
Service's (FWS) Partners for Fish and Wildlife Program restores wetland 
habitat in watersheds across the country, including the Upper 
Mississippi River Basin. The FWS is available to apply its expertise to 
the reduction of sediment and nutrient loss in the basin through 
participation in demonstration projects, technical assistance, and 
working groups. We recognize the need to ensure that future monitoring 
activities complement and do not duplicate State monitoring activities.
    The provisions of H.R. 3480 are consistent with Gulf of Mexico 
Watershed Nutrient Task Force recommendations with regard to science 
and management activities. The proposed legislation describes a program 
consistent with current USGS activities to support protection of the 
UMRB.
    In summary, the goals of the bill are commendable, and the bill 
contains provisions that are within the scope and expertise of the 
USGS, and that may be met by other on-going programs. However, funding 
for the activities in H.R. 3480 is not included in the Fiscal Year 2003 
President's Budget proposal and would remain subject to available 
resources. Also, there are several provisions of the bill with which we 
have concerns. We believe that the cost-sharing provisions of this bill 
should conform with other similar programs, such as the USGS 
Cooperative Water Program which requires a dollar for dollar match of 
Federal and non-Federal funds.
    We welcome the opportunity to discuss with the Committee the 
matters of concern to us and ways to best achieve the important 
purposes of the bill. Thank you, Mr. Chairman, for the opportunity to 
present this testimony. I will be pleased to answer questions you and 
other members of the Subcommittee might have.
                                 ______
                                 
    Mr. Walden. Thank you very much, Doctor.
    Now I would like to extend the opportunity for Mr. Kind, 
who has joined us, to give us an opening statement, if you 
would like, and then we will take questions.

 STATEMENT OF THE HON. RON KIND, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Kind. Thank you, Mr. Chairman. I do have a written 
statement I would like to submit for the record, without 
objection.
    Mr. Walden. Without objection.
    Mr. Kind. Thank you.
    I thank you, Director Hirsch, for your willingness to come 
and testify in regards to the legislation and all of the 
witnesses who have been called to testify before the Committee 
today.
    I would also like to thank the Chairman and Ranking Member 
of this Committee, Mr. Calvert and Mr. Smith, for their 
willingness to hold the hearing, as well as the Chair and 
Ranking Member of the Full Committee, and the staff for working 
closely with us on refining and fine-tuning the legislation, it 
is very much appreciated, as well as Mr. Tauzin and his staff, 
who had some suggestions on how we can improve the legislation.
    Mr. Chairman, this bill that was reintroduced in December, 
it has actually been pending before this Committee, this 
Congress for the last few years. It has been a personal quest 
of mine since I became a Member of Congress a few years ago to 
do everything that I can with my colleagues to better preserve 
and protect one of the great natural treasures that exist in 
the country, the Upper Mississippi River Basin, and the huge 
impact that it has not only on the communities directly in the 
basin, but the entire country as a whole.
    When you look at the Mississippi River Basin, what you are 
really talking about is everything west of the Appalachian 
Mountains and everything east of the Rocky Mountains. It 
encompasses a geographic area of roughly 40 percent of the 
continental United States, and locally, the Upper Mississippi 
region, has about a $1.2-billion recreation impact, a $6.6-
billion economic. It is also the primary drinking water source 
for 22 million Americans, and it is the largest migratory route 
in North America, with roughly 40 percent of the water fowl 
flying down and flying back up again the Mississippi River 
corridor.
    But there is a lot of concern, for those of us who are 
familiar with the river and from the experts who I have talked 
to in regards to the sustainability of the river basin as a 
whole. If you talk to the experts, and we have some of those 
witnesses here today, they say one of the chief challenges that 
we face in regards to maintaining the sustainability of the 
river is being able to better track the sediment and nutrients 
that flow into the river basin.
    This stuff has adversely affected this very valuable 
ecosystem by filling in back bays, by ruining natural habitat, 
by the flow that is occurring in the Upper Mississippi region, 
the impact it also has in the Southern region, and that is what 
3480 is meant to address.
    It is trying to put the science in place, where we can 
develop comprehensive monitoring, a network between the 
Federal, State and local agencies, and developing a private-
public partnership and doing a better job of monitoring what is 
happening in the system, and then developing the computer 
models so that we know what is taking place and then what best 
practices, best management plan can be put in place to better 
protect the river basin as a whole.
    It has been a work in progress, a collaborative effort. The 
other thing that I did as a new Member of Congress was help 
form a Mississippi River Bipartisan Task Force, a Caucus. I 
have a letter from the two current chairs of the task force, 
Kenny Hulshof and Len Boswell, in support of the legislation, 
that I would like to introduce for the record, at this time.
    Mr. Walden. Without objection.
    [The letter from Messrs. Hulshof and Boswell follows:]
    [GRAPHIC] [TIFF OMITTED] 78048.003
    
    Mr. Kind. And also what we are proposing in this 
legislation is consistent with the work that has been taking 
place with the Hypoxia Task Force and their current action 
plan.
    In fact, I also have a letter from a variety of Governors 
of the States along the Mississippi River-- Louisiana, 
Missouri, Arkansas, Mississippi, Tennessee, and Minnesota--
supporting the goals of the task force and the action plan in 
place. In fact, in their letter they indicate, ``To succeed, 
this effort will require an extensive program that is supported 
by States and funded and coordinated by the Federal 
Government.''
    They also go on to state in the letter, ``A parallel 
monitoring effort conducted jointly by USGS and the States is 
required within the basin to determine the water quality 
effects of the actions taken and to measure the success of 
efforts on a sub-basin and project level.''
    That is, I would submit, entirely consistent with the goals 
and the objective of this legislation. When it was reintroduced 
in December, we had seventeen original co-sponsors, nine ``Ds'' 
and eight ``Rs,'' which shows the broad bipartisan support that 
the legislation has. I am not aware of any colleague in 
Congress that opposes the legislation or any group outside who 
opposes the legislation or any group outside who opposes the 
legislation. In fact, we have worked very closely with a whole 
host of groups and agencies to determine what the best course 
of action would be.
    So I thank the Committee again for the opportunity to hold 
a hearing on this important piece of legislation and the 
witnesses who have come to testify, and I look forward to 
hearing your testimony.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kind follows:]

Statement of The Honorable Ron Kind, a Representative in Congress from 
                  the State of Wisconsin, on H.R. 3480

    Thank you Mr. Chairman and members of the Subcommittee for the 
opportunity to comment on H.R. 3480, the Upper Mississippi River Basin 
Protection Act. While I have spoken before this Subcommittee on similar 
legislation in the 106th Congress, H.R. 3480 is a much more focused 
bill, specifically designed to enhance existing monitoring programs on 
the Upper Mississippi River Basin, and provide reliable, scientific 
data for targeting future nutrient and sediment reduction efforts.
    The Upper Mississippi River system, whose tributaries and basin 
encompass much of Wisconsin, Minnesota, Iowa, Illinois, and Missouri, 
is widely recognized as one of our nation's great multi-use natural 
resources. While the Mississippi River and its tributaries provide 
drinking water to approximately 22 million Americans, the system's 
1,300 navigable miles transport millions of tons of commercial cargo 
via barges. In addition, 40% of North America's waterfowl use the 
wetlands and backwaters of the main stem as a migratory flyway, 
illustrating the environmental significance of the system as well as 
recreation capabilities. Overall, the Upper Mississippi River Basin 
provides $1.2 billion annually in recreation income and $6.6 billion to 
the area's tourism industries.
    Unfortunately, high sediment and nutrient levels threaten the 
health of the river system and the vast recreational, agricultural, and 
industrial activities it supports. Sediment fills the main shipping 
channel of the Upper Mississippi and Illinois Rivers, costing over $100 
million each year to dredge. Nutrient inputs degrade water quality in 
the Upper Mississippi River system and impact far downstream to the 
Gulf of Mexico.
    As a basis for making effective decisions for improving water 
quality, accurate data must be available. Building the nutrient and 
sediment monitoring system that provides this data will require 
extensive communication and coordination between government agencies at 
the Federal, state, and local levels, as well as other stakeholders. By 
utilizing existing monitoring programs to the maximum extent possible, 
H.R. 3480 builds upon existing efforts by authorizing the U.S. 
Geological Survey (USGS) to coordinate and integrate these efforts, 
expand where necessary, develop guidelines for data collection and 
storage, and establish an electronic database system to store and 
disseminate information. USGS would also establish a state-of-the-art 
computer modeling program to identify significant nutrient and sediment 
sources, at the subwatershed level, to better target reduction efforts. 
In addition, H.R. 3480 includes strong protections for the privacy of 
personal data collected and used in connection with monitoring and 
modeling activities.
    The need for accurate and comprehensive data collection is 
essential to addressing the problems of the Upper Mississippi River 
Basin. In crafting this legislation, I have worked with farmers, the 
navigation industry, sporting groups, environmental organizations, and 
government agencies throughout the region. As co-chair of the Upper 
Mississippi River Basin Congressional Task Force, I have also worked to 
build consensus among regional legislators on how best to approach the 
natural resource challenges of the basin.
    While focused in the Upper Mississippi River Basin, the benefits of 
the programs authorized in this bill would extend far beyond the five-
state region, because nutrients and sediments from the Upper Midwest 
have impacts all the way down the Mississippi and into the Gulf of 
Mexico. Moreover, I see this approach as a pilot for future watershed 
and basin initiatives in other parts of the nation.
    As you know, water quality problems in the Mississippi River Basin 
cross traditional state and administrative boundaries. Solving these 
problems requires a coordinated and cooperative approach between the 
Federal, state, and local agencies and groups working throughout the 
region. H.R. 3480 represents a common-sense move toward building the 
scientific foundation necessary to remedying nutrient and sediment 
problems in the region.
    Thank you for the opportunity to share my remarks on this important 
legislation. I appreciate your consideration and I urge the 
Subcommittee's support.
                                 ______
                                 
    Mr. Walden. Thank you. Did you want to insert the letter 
from the Governors?
    Mr. Kind. I would, without objection.
    Mr. Walden. Without objection, it will be added in.
    Mr. Kind. Thank you.
    [The letter from the six Governors submitted for the record 
by Mr. Kind follows:] 
[GRAPHIC] [TIFF OMITTED] 78048.001

[GRAPHIC] [TIFF OMITTED] 78048.002

    Mr. Walden. Thank you.
    Mr. Keys, let us focus on House Bill 3606 for a second, the 
Wallowa Lake Dam issue. Is there ever any Federal interest in a 
non-Federal facility, from your perspective?
    Mr. Keys. Mr. Chairman, I think all of us are always 
interested when we see a facility that is not safe. Who funds 
it and how you take care of it is another issue. In the past, 
we have worked with some non-Federal facilities, but when we 
did that, they actually became part of the project.
    Mr. Walden. Part of the Federal project.
    Mr. Keys. Yes, sir. An example is over on the Ochoco 
project in your district there, that was an old private dam 
that became part of the Federal project when we added on to it, 
and then we went back in and did safety and damage repairs on 
it. It became part of the Federal project and became part of 
the repayment obligation under Reclamation law.
    Mr. Walden. As you are aware, there is a need for 
rehabilitation of this facility. This is pretty obvious I think 
to all of us. Who would you suggest then that we could turn to 
for help, if we do not go that approach, the Federalizing 
approach? Are there other resources out there we can bring to 
bear? This is a small community in a very economically 
devastated part of my district.
    Mr. Keys. Mr. Chairman, in other places that we have worked 
with a private facility like that that is done on safety, we 
worked with the States involved.
    In the Northwest there, Oregon, Washington, Idaho have 
worked with us on our Safety of Dams Program and us working 
cooperatively with them on their Safety of Dams Programs for a 
long time.
    I know that those three States have mechanisms for funding 
those kinds of corrections. I don't know what was done in the 
Wallowa Lake Dam process for them to seek funding from the 
State of Oregon, though.
    Mr. Walden. All right. Are you aware of the Bureau's 
involvement in conservation and fisheries issues in the Upper 
Basin that date back like to 1984 and obligations under the 
ESA?
    Mr. Keys. Mr. Chairman, yes, I am.
    Mr. Walden. Is there a nexus there we can look onto, Mr. 
Keys?
    Mr. Keys. Mr. Chairman, dealing with the Endangered Species 
Act and those listed salmon there have been a challenge to 
Reclamation since they were listed in 1990, 1991.
    There are a number of actions that are underway to try to 
do offsite mitigation, to provide waters for helping move the 
fish up and down the river. That part of this proposal is a 
good proposal. For them to be able to try to set up an exchange 
there is something that we have participated in and encouraged 
them to do. It is a good part of the program. It is just that 
the Safety of Dams part of it makes it not acceptable.
    The way they deal with the power plant in this funding is 
also something that causes us pause.
    Mr. Walden. From what perspective?
    Mr. Keys. Mr. Chairman, from the perspective that they are 
asking for Federal money to go in and put a power plant in, us 
not have any ownership, us not get any of the benefit from the 
generation there, that it become part of the Federal grid.
    The precedent of spending Reclamation money, when we need 
to spend that money on our own Safety of Dams Program, to spend 
that money building a power plant, when we have our own system 
to operate, and maintain and try to add to just causes us 
pause.
    Mr. Walden. Can you tell me, if you know, what kind of the 
backlog is of your Federal Dams Safety Program in terms of 
cost?
    Mr. Keys. Mr. Chairman, I would not say that we have a 
backlog in our Safety of Dams Program. We have a long list of 
facilities to take a look at. We have planned schedule to do 
that. We, this year, in 2002, are finishing up work at Pine 
View. We are doing the work at Horse Tooth and in Wickiup in 
your district.
    Mr. Walden. Right.
    Mr. Keys. We should finish up Pine View this year and pick 
up Keechelus, in the State of Washington, to start on next 
year.
    Those monies that we have are adequate for meeting that 
schedule. We have to come back for reauthorization of the act 
next year because the authorization and funding levels that we 
have now run out in the year 2003.
    Mr. Walden. Thank you very much, Mr. Keys.
    Mr. Kind, do you have any questions of our witnesses?
    Mr. Kind. Just a couple for Director Hirsch.
    First of all, thank you for your testimony and for the 
feedback that you have been able to give our office in working 
with us.
    Just so we are clear, is the stated purpose and goals of 
the legislation consistent with the type of work that USGS is 
currently involved in, in better preserving and protecting the 
Upper Mississippi River Basin, in your opinion?
    Mr. Hirsch. Yes, absolutely. It is quite consistent.
    Mr. Kind. Is it, in your opinion, consistent with the Gulf 
of Mexico Watershed Nutrient Task Force and the recommendations 
that they made, especially as it relates to the scientific and 
the research portion of what needs to be done to address that 
issue?
    Mr. Hirsch. Yes, it certainly is.
    Mr. Kind. I share your concern in regards to the funding 
level of the variety of USGS water monitoring and water quality 
programs in that. I think, at a time, given the work that has 
been done with the task force down South and the collaborative 
network of cooperation that exists in the Upper Miss area, too, 
that we need to be moving more in the direction of increased 
water monitoring and even in establishing a modeling network in 
that.
    But it is a little disheartening to see so many current 
water gauges being taken out of service at a time when we 
really should be protecting that and, in fact, expanding that 
so we know what is happening and what the best management 
practice is, but obviously that will be an issue for the 
Congress to decide, in regards to the appropriate allocation of 
resources.
    Let me just quickly compliment USGS. I have seen your 
offices and the personnel that you have working in them, and 
the professionalism and the scientific expertise that they 
bring to a whole host of issues, whether it is long-term 
resource monitoring and even some of the modeling now that they 
are starting to dab into. I think this legislation is very 
consistent and a nice mesh with the type of quality that exists 
with USGS personnel you have in place and the type of work that 
is being conducted. Would you say that is an accurate 
statement?
    Mr. Hirsch. Yes, and thank you for the compliments. We are 
indeed proud of what we have been doing. I recently visited our 
office in La Crosse and was most impressed by the work that 
they do there.
    Mr. Kind. Right. Well, thank you very much again for your 
testimony and your feedback. We will be happy to continue 
working with you and your entire office as we move forward.
    Thank you.
    Mr. Walden. Thank you, Mr. Kind.
    Gentlemen, thank you for being here today. We appreciate 
your testimony very much.
    I would like to call up our second panel of witnesses; Mr. 
Schnoor, Mr. Daigle, Holly Stoerker, and John McLachlan, and 
Mr. McMillen as well.
    Mr. McMillen, we will start with you, since you are the 
only other witness on H.R. 3606--clearly, the most important 
bill before this Subcommittee this morning.
    [Laughter.]

     STATEMENT OF MORTON McMILLEN, MONTGOMERY WATSON HARZA

    Mr. McMillen. Thank you, Mr. Chairman.
    My name is Morton McMillen, and I am here today 
representing the Steering Committee for the Wallowa Lake Dam 
Rehabilitation and Management Project. I am currently a design 
engineer with Montgomery Watson Harza, assigned to their Boise, 
Idaho, office, where I serve as a senior project engineer and 
manager for water resources and aquaculture projects.
    Mr. Walden. Mr. McMillen, push down the button. There you 
go.
    Mr. McMillen. I wish to thank the U.S. House of 
Representatives and the Subcommittee on Water and Power for the 
opportunity to testify on behalf of Bill H.R. 3606 to authorize 
the Bureau of Reclamation to participate in the Wallowa Lake 
Dam Rehabilitation and Water Management Plan. It is truly an 
honor to be present here in our Nation's capital and work with 
elected leaders of this Nation.
    As a member of the Steering Committee and a native of 
Wallowa County, I bring a project proposal before you which is 
founded in the soil of rural Wallowa County. This project 
balances the needs of competing demands for our precious water 
resources, while protecting the economic foundation of the 
community. This project was framed by the local residents to 
meet the needs of agriculture, flood control, recreation and 
water supply, while also protecting and enhancing our 
invaluable fish and wildlife resources.
    Wallowa Lake Dam is located on the natural outlet of 
Wallowa Lake and provides up to 50,000 acre-feet of storage. 
The dam was originally constructed in 1918 and raised in 1929 
to provide additional storage for irrigation and hydropower 
generation. The reservoir has historically provided high-
quality water, supporting a wide range of uses, which include: 
irrigation; potable water supply for the city of Joseph; it has 
a huge recreation opportunity, with over 800,000 recreational 
users per year that visit the lake; the flood control, with 
active storage managed to provide flood protection in the 
Cities of Joseph, Enterprise, and Wallowa during spring runoff 
periods; and it also comprises base flows to the Wallowa River 
and the Grande Ronde Rivers, which currently have listed 
species for spring chinook and bull trout.
    The ADC embarked on the planning and design of long-term 
improvements to Wallowa Lake Dam and quickly realized that the 
dam was the central structure to water management within 
Wallowa Valley. The balance between agricultural needs and the 
salmon recovery was identified as one of the primary program 
elements. The Nez Perce Tribe, in cooperation with the Oregon 
Department of Fish & Wildlife, with oversight by the National 
Marine Fisheries Service and the U.S. Fish & Wildlife Service, 
have begun the planning and implementation of salmon recovery 
measures throughout the Wallowa Valley.
    An integrated water management plan for the Wallowa River 
Corridor is necessary to ensure these measures are successful, 
as well as meet demands from a widespread spectrum of 
additional users.
    ADC invited members of the community, State resource 
agencies, and Federal agencies to participate in the 
development of a water management plan, which considered the 
multi-purpose water demands. Through this coordinated effort, a 
partnership was formed led by the ADC and the Grande Ronde 
Model Watershed, with technical assistance in the upper valley 
by Montgomery Watson Harza and in the lower valley by the 
Bureau of Reclamation.
    An integrated plan was formulated addressing water 
management issues within the length of the corridor. The basic 
elements of this plan are presented within the Wallowa Lake Dam 
Rehabilitation and Water Management Plan Vision Statement, 
dated February 2001.
    There are a number of benefits in addition to dam safety 
for this project. These benefits include flood protection; 
there is water conservation, through improved irrigation 
methods; potable water supply; fish passage and protection, 
including enhancement and reintroduction of coho and sockeye 
salmon in the basin; continued recreation use; provisions for 
additional hydropower to meet future demands so we don't have a 
repeat of what happened last year; fish protection; agriculture 
production; increased tourism; and economic stability.
    The Wallowa Valley economy has historically been founded in 
natural resource industries, primarily agriculture and timber. 
Wallowa Lake Dam has provided irrigation water support to 
agriculture development. As with most rural communities, 
timber-based industries are rapidly disappearing. Tourism has 
become an increasingly important part of the local economy. 
Wallowa Lake is the principal draw to this area. Rehabilitation 
of the dam and enhancement of the fishery resources will 
provide additional tourism dollars to the local economy.
    The experience and knowledge gained from this project will 
also serve watershed planning efforts throughout the Northwest. 
This program will outline the framework and institutional 
requirements to implement a true watershed approach to 
balancing competing demands for our water supplies. The 
grassroots-driven approach, which anticipates and plans for 
regulatory requirements, rather than reacting to regulatory 
enforcement, is critical to maintain economic stability and 
cooperative working environments.
    We strongly support the passing of Bill H.R. 3606, 
authorizing the Bureau of Reclamation to participate in the 
rehabilitation of the Wallowa Lake Dam in Oregon and for other 
purposes. This project has its root in the Wallowa Valley. The 
local residents developed the framework for the project to 
address current pressing dam safety issues, as well as 
anticipating future regulatory requirements. These stakeholders 
have proactively formed a Steering Committee and invited all 
interested agencies to participate and become part of the 
solution.
    We have received written letters of support from the 
National Marine Fisheries Service, U.S. Fish & Wildlife 
Service, Oregon Department of Fish & Wildlife, and the Nez 
Perce Tribe.
    The Steering Committee initiated the planning and 
coordination for this project prior to the Klamath Falls 
calamity. The committee implemented a cooperative program, 
requesting up-front coordination with the participating 
agencies. The proposed project elements represent a balance 
between what is physically, institutionally and financially 
feasible. This grassroots approach is the foundation to a 
successful project development, implementation, and operation.
    Thank you.
    [The prepared statement of Mr. McMillen follows:]

Statement of Morton D. McMillen, Principal Engineer, Montgomery Watson 
 Harza, Boise, Idaho, Representing Wallowa Lake Dam Rehabilitation and 
                Water Management Plan Steering Committee

    Dear Mr. Chairman and Members of the Subcommittee on Water and 
Power:
    We wish to thank the members of the U.S. House of Representatives 
and the Subcommittee on Water and Power for the opportunity to testify 
on behalf of bill H.R. 3606 to authorize the Bureau of Reclamation to 
participate in the Wallowa Lake Dam Rehabilitation and Water Management 
Plan. It is truly an honor to be present here in our Nation's Capital 
and participate in the democratic process which is the foundation of 
our Country.
    As a member of the Steering Committee and native of Wallowa County, 
I bring a project proposal before you which is founded in the soil of 
Wallowa County, balances the needs of competing demands for our 
precious water resources, and protects the economic foundation of the 
community. This project was framed by the local residents to meet the 
needs of agriculture, recreation, flood control, recreation and water 
supply while also protecting our invaluable fish and wildlife 
resources.
    The Steering Committee requested that I present written and verbal 
testimony to this Subcommittee hearing representing the interests of 
the Steering Committee partners. My understanding of the engineering 
and scientific basis for the proposed project as well as a hands on 
understanding of the issues facing the local residents was the basis 
for this selection. My roots are firmly entrenched in the Wallowa 
Valley and I bring a personal commitment to see this project through to 
completion to the Subcommittee.
    My family originally homesteaded in the Grangeville, Idaho area and 
relocated to the Wallowa County in 1948. My grandfather raised cattle 
and farmed until his retirement in 1975. My father and most of my 
relatives have been employed in the agriculture or timber industry 
within Wallowa County. I was raised on a cattle farm outside of 
Enterprise and grew up using the irrigation systems provided with water 
stored behind Wallowa Lake Dam. My father served as the foreman for an 
Angus cattle ranch and my mother was a charge nurse at the Wallowa 
County nursing home.
    Upon graduation from Enterprise High School, I attended the 
University of Idaho at Moscow, Idaho graduating with a degree in Civil 
Engineering in May 1986. My first professional employment was with the 
Army Corps of Engineers, Walla Walla District. I started employment 
with the Corps as a cooperative education student in 1984 and continued 
following graduation until 1989. While with the Corps, I was actively 
involved in the planning and design of fish passage and production 
facilities within the Snake River Basin, including the Grande Ronde 
River for which the Wallowa River is a tributary. Specific project 
experience included juvenile and adult passage projects on the Lower 
Snake River dams, hatchery production facilities on the Clearwater and 
Snake River, and acclimation facilities in Idaho and Eastern Oregon. My 
work experience also includes design of flood control structures 
including dams, channels, and pipelines.
    I returned to graduate school in 1989 at Stanford University where 
I focused on expanding my background into water quality and treatment 
process design. Upon graduation, I entered the private engineering 
industry. For the past 9 years I have been employed at Montgomery 
Watson Harza where I serve as a senior project engineer and manager for 
water resources and aquaculture projects. I have been involved in 
projects throughout the Umatilla, Walla Walla, and Grande Ronde River 
Basins.
    This written testimony was developed to provide a summary of the 
background and elements of the project, the benefits and schedule, and 
the importance of the project to the community and watershed planning 
in future basins. The testimony is organized as follows:
    <bullet> LProject Background summarizing the events leading to the 
program development.
    <bullet> LMission Statement guiding the program development.
    <bullet> LIdentified Issues addressed within the program.
    <bullet> LWater Management Plan and Infrastructure project 
elements.
    <bullet> LProactive Agency Coordination which has occurred
    <bullet> LProactive Coordination with Other Programs which has 
occurred.
    <bullet> LAchieved Visible Accomplishments already derived.
    <bullet> LMeasurable Benefits resulting from the program.
    <bullet> LBudget and Schedule requirements.
    <bullet> LSummary
Project Background
    The Wallowa Valley is located in Northeast Oregon approximately 330 
miles east of Portland, Oregon. The valley is encircled by the Wallowa 
Mountains, Blue Mountains, and Seven Devil Mountains. Located one mile 
south of Joseph, Oregon, Wallowa Lake sits at the base of the Wallowa 
Mountains and is fed by a drainage basin over 50 square miles in size 
located within the Eagle Cap Wilderness Area.
    Wallowa Lake Dam is located on the natural outlet of Wallowa Lake 
and provides up to 50,000 acres-feet of storage. The dam was originally 
constructed in 1918 and raised in 1929 to provide additional storage 
for irrigation and hydropower generation. The dam is owned and operated 
by the Associated Ditch Companies, Incorporated (ADC).
    Fed from wilderness area high in the Wallowa Mountains, the Wallowa 
Lake reservoir has historically provided high quality water supporting 
a wide range of uses including:
    <bullet> LIrrigation of over 15,000 acres of prime agricultural 
land within the Wallowa Valley.
    <bullet> LPotable water supply for the City of Joseph.
    <bullet> LRecreation with over 800,000 recreational users enjoying 
boating, water skiing, personal water craft, swimming, and fishing.
    <bullet> LFlood control with the active storage managed to provide 
flood protection to the Cities of Joseph, Enterprise, and Wallowa 
during spring runoff periods.
    <bullet> LBase flows to the Wallowa River and Grande Ronde Rivers 
preserving and enhancing riparian habitat, fish stocks, water fowl, and 
overall water quality.
    Wallowa Lake Dam was listed as a high hazard structure in March of 
1996 by the Oregon Water Resources Department of Dam Safety. The sudden 
failure and release of water would probably result in loss of life as 
well as severe economic and environmental damage. The ADC moved quickly 
to implement short-term structural improvements in 1996 to stabilize 
the dam. The reservoir has subsequently been held below full pool 
elevation to maintain safety.
    The ADC embarked on the planning and design of long term 
improvements to Wallowa Lake Dam and quickly realized that the dam was 
the central structure to water management within the Wallowa Valley. 
The balance between agricultural needs and salmon recovery was 
identified as one of the primary program elements. The Nez Perce Tribe 
in cooperation with the Oregon Department of Fish and Wildlife are 
actively planning and implementing salmon recovery measures throughout 
the Wallowa Valley. An integrated water management plan for the Wallowa 
River corridor is necessary to ensure these measures are successful as 
well as meet demands from a wide spectrum of additional users.
    ADC invited members of the community, state resource agencies, and 
Federal agencies to participate in the development of a water 
management plan, which considered the multi-purpose water demands. 
Through this coordinated effort, a partnership was formed led by the 
ADC and the Grande Ronde Model Watershed Program with technical 
assistance provided by Montgomery Watson Harza. An integrated plan was 
formulated addressing water management issues through the length of the 
Wallowa River Corridor. The basic elements of this plan are presented 
within the Wallowa Lake Dam Rehabilitation and Water Management Plan 
Vision Statement, dated February 2001.
Mission Statement
    The steering committee set out to define the goals and objectives 
at the onset of the project development. These objectives are clearly 
summarized in the project Mission Statement:
        ``To rehabilitate Wallowa Lake Dam and implement a water 
        management program for the Wallowa Valley serving the needs of 
        agriculture, salmon recovery, fish and wildlife enhancement, 
        recreation, flood control, municipal water supply, and 
        hydropower generation.''
    This mission statement serves as the foundation of the program upon 
which progress and benefits will be measured. Throughout the project 
development and implementation, the steering committee will return to 
the mission statement to ensure the project is managed within the 
original mission framework.
Identified Issues
    Water management issues within the Wallowa River corridor, both 
environmental and infrastructure needs were identified by the study 
team through pre-planning work tasks and coordination meetings. The 
primary issues identified were:
    <bullet> LWallowa Lake Dam does not meet current dam safety 
requirements for stability against sliding and overturning, earthquake 
resistance, spillway capacity, and outlet tunnel condition. The dam is 
listed as a high hazard structure by the Oregon State Department of Dam 
Safety and major improvements are necessary to protect human life and 
property.
    <bullet> LThree irrigation withdrawals downstream from the dam are 
unscreened potentially impacting ESA listed bull trout and salmon.
    <bullet> LAccurate water measurement and control are not possible 
with the existing manual diversion gates. Without these systems in 
place, active conservation efforts would be difficult to implement and 
monitor.
    <bullet> LAdult fish passage at Wallowa Lake Dam will be required 
to support the re-introduction of coho and sockeye salmon to Wallowa 
Lake as part of the Wallowa County Salmon Recovery Plan.
    <bullet> LIrrigation withdrawals in the Lostine River create low 
flow conditions impassable to migrating ESA listed Spring Chinook 
salmon and Bull Trout.
    <bullet> LHydropower production with the dam water releases is not 
being realized.
    <bullet> LCurrent water management in the Wallowa River corridor is 
fragmented with competing needs for irrigation and salmon recovery 
efforts.
Water Management Plan and Infrastructure
    The participating partners have developed a phased project approach 
focusing on early action on the high priority project elements. The 
phased approach allows the planning and design of the complete project, 
then implementation of the infrastructure in a sequenced manner. The 
project phases are:
    <bullet> LPhase I--Wallowa Lake Dam Rehabilitation and Water 
Management Plan Development
    <bullet> LPhase II--Fish Passage Improvements and Water 
Conservation Measures
    <bullet> LPhase III--Implementation of Water Exchange 
Infrastructure
    <bullet> LPhase IV--Hydropower Implementation
    Rehabilitation of Wallowa Lake Dam is the critical element to the 
success of the program. The dam serves as the water management tool for 
storing and releasing water to support the multi-purpose uses. The 
priority of Phase I is to plan, design, and construct the recommended 
improvements to Wallowa Lake Dam. With the dam rehabilitation complete, 
operation will return to the full pool storage elevation. Water from 
the storage reservoir will then be allocated to the Lostine River and 
Bear Creek Valley irrigators in exchange for Lostine River water to 
remain within the river. A water management plan will be developed 
outlining the water management framework for the Wallowa River corridor 
including the water exchange from the storage reservoir.
    The Phase I work will also complete the planning and environmental 
analysis required to support implementation of the integrated water 
management plan. The administrative, policy, and management framework 
required to develop a successful water management plan will be 
developed. The mechanism and infrastructure necessary to address the 
critical water management issues will be identified and serve as the 
basis for the subsequent work phases.
    Phase II will focus on the planning and implementation of fish 
screens, automated head gates, and flow measurement devices at the 
unscreened diversions. Provisions for adult fish passage will be 
planned as part of the Phase I work and implemented in Phase II to 
support re-introduction of coho and sockeye salmon to Wallowa Lake. The 
Nez Perce Tribe are currently preparing a masterplan outlining the 
requirements for coho re-introduction within the Wallowa Valley.
    With Wallowa Lake Dam Rehabilitation complete, the stored water 
will be available to supplement irrigation needs within the Lostine 
River and Bear Creek Valleys. Phase III will plan, design, and 
implement the infrastructure and institutional framework to execute a 
water exchange. The infrastructure requirements include pumps and 
pipelines to transfer water from the Wallowa River to the Lostine and 
Bear Creek Valley irrigation system. Lostine River water will remain in 
the river during the critical spring chinook salmon migration period of 
late July through September. Storage in Wallowa Lake will be reserved 
to supplement irrigation demands in the Lostine Valley during this 
period. The Bonneville Power Administration has completed the predesign 
for new production facilities on the Lostine River designed to 
supplement and enhance runs of ESA listed spring chinook salmon. The 
production facilities will be completed in December 2005 which concurs 
with the scheduled completion of Phase III.
    Phase IV will evaluate and implement a hydropower facility to 
recover energy from water releases from Wallowa Lake Dam. A generation 
plant was operated at the dam for many years, but was decommissioned 
following a fire in the 1950's. With the current increase in power 
rates throughout the country, re-establishing a hydropower facility at 
the facility is a prudent step. Plans are in place to donate revenue in 
excess of cost to support the Wallowa County Hospital. The hospital has 
been operating unprofitably for many years and is threatened with 
closing. The hydropower facility would provide the hospital with a 
stable revenue stream and benefit the community. The proposed 
hydroelectric generation facility provides a renewable energy source 
operating with environmental measures in place to protect endangered 
species and maintain water quality.
Proactive Agency Coordination
    The partners have been working over the past two years to develop a 
framework for planning and implementation of the program. This 
framework is designed with a foundation led by local Wallowa County 
groups and extending to the support of State and Federal agencies. This 
grass roots approach has led to a number of accomplishments.
    <bullet> LDevelopment of a steering committee to assist in 
development and guidance of the program. This steering committee is led 
by strong local groups, which are the Grande Ronde Model Watershed and 
the ADC.
    <bullet> LCoordination with the Nez Perce Tribe and the Oregon 
Department of Fish in Wildlife to integrate ongoing salmon recovery 
measures with water management. The tribe and Oregon Department of Fish 
and Wildlife are co-managers of the fishery resources within the 
Wallowa Valley and have established working relationships to manage and 
enhance fishery resources.
    <bullet> LSubmittal of grants proposals to obtain technical data 
and install flow measuring devices. These grants were obtained and 
monitoring devices installed to assist in the planning, design, and 
implementation of the project elements.
    <bullet> LImplementation of a public involvement program to involve 
members of the community and participating agencies.
    <bullet> LCollection of engineering and scientific data on Wallowa 
Lake Dam, Wallowa River, and Lostine River.
    <bullet> LConducted a dam safety inspection, evaluation, and 
remediation evaluation.
    <bullet> LPreliminary evaluation of the feasibility of hydropower 
generation at Wallowa Lake Dam.
    <bullet> LDeveloped groundwork with the affected irrigators to 
develop administrative framework for executing the water exchange.
    The partners have been pro-active in developing relationships with 
the regulatory agencies and bringing these agencies on board as part of 
the steering committee. The program is designed to address looming ESA 
issues, develop solutions, and implement these solutions before 
regulatory action is required.
Proactive Coordination with Other Programs
    Many local, State, and Federal agencies are involved in restoration 
programs within the Wallowa Valley. The Wallowa Valley has historically 
supported a wide range of fisheries resource including sockeye salmon, 
coho salmon, spring chinook salmon, steelhead, as well as bull trout. 
Through the Steering Committee and the leadership of the partnership, 
close coordination will occur with these programs. Coordination is 
currently ongoing with but not limited to:
    <bullet> LWallowa County Salmon Restoration planning activities.
    <bullet> LNorthwest Oregon Hatchery Project where the Nez Perce 
Tribe and Oregon Department of Fish and Wildlife are planning a spring 
Chinook hatchery on the Lostine River.
    <bullet> LCoho Salmon restoration master plan led by the Nez Perce 
Tribe to re-introduce coho salmon to Wallowa Lake and the Wallowa 
River.
    <bullet> LSteelhead enhancement master plan designed to supplement 
current steelhead runs on the Wallowa River and throughout the Grande 
Ronde Basin.
    <bullet> LOregon Department of Fish and Wildlife fish screening 
program designing and constructing fish screens on small irrigation 
diversions.
    <bullet> LWatershed planning and implementation projects led by the 
Grande Ronde Model Watershed.
    <bullet> LOregon Dam Safety requirements.
    Coordination with these and other ongoing program will ensure that 
measures developed and implemented as part of the Wallowa Valley 
Project will be optimized and fully support other program objectives.
Achieved Visible Accomplishments
    The partners have been working over the past year to develop a 
framework for planning and implementation of the program. This 
framework is designed with a foundation led by local Wallowa County 
groups and extending to the support of State and Federal agencies. This 
grass roots approach has led to a number of accomplishments.
    <bullet> LDevelopment of a steering committee to assist in 
development and guidance of the program.
    <bullet> LCoordination with the Nez Perce Tribe and the Oregon 
Department of Fish in Wildlife to integrate ongoing salmon recovery 
measures with water management.
    <bullet> LSubmittal of grants proposals to obtain technical data 
and install flow measuring devices.
    <bullet> LImplementation of a public involvement program to involve 
members of the community and participating agencies.
    <bullet> LCollection of engineering and scientific data on Wallowa 
Lake Dam, Wallowa River, and Lostine River.
    <bullet> LConducted a dam safety inspection, evaluation, and 
remediation evaluation.
    <bullet> LPreliminary evaluation of the feasibility of hydropower 
generation at Wallowa Lake Dam.
    <bullet> LDeveloped groundwork with the affected irrigators to 
develop administrative framework for executing the water exchange.
    These accomplishments are visible, productive, and meet the 
objectives of the mission statement. The demonstrated ability to 
develop and implement specific project elements has been demonstrated 
and will be maintained throughout the course of the program.
Measurable Benefits
    The proposed project benefits the Wallowa Valley community in many 
ways. The integrated approach to the dam rehabilitation and water 
management is a true ecosystem approach to resource management. Both 
the citizens of the Wallowa Valley and the environment can co-exist. 
Benefits to be realized by the project include:

 
                ,--                                   ,
 
        <bullet> Flood protection    <bullet> Fish protection
        <bullet> Water conservation  <bullet> Agricultural production
        <bullet> Potable water       <bullet> ESA listed salmon
 supply                               restoration
        <bullet> Fish passage and    <bullet> Improved fish and wildlife
 protection                           habitat
        <bullet> Continued           <bullet> Increased tourism
 recreational use                    <bullet> Economic stability
        <bullet> Hydropower energy
 production
 

    The Wallowa Valley economy has historically been founded in natural 
resource industries, primarily agriculture and timber. Wallowa Lake Dam 
has provided the irrigation water to support the agriculture 
development. As with most rural communities, timber based industries 
are rapidly disappearing. Tourism has become an increasingly important 
component of the local economy. Wallowa Lake is the principal draw to 
the area. Rehabilitation of the dam and enhancement of the fishery 
restores will provide additional tourism dollars to the local economy.
    The experience and knowledge gained from this project will also 
serve watershed planning efforts throughout the Northwest. This program 
will outline the framework and institutional requirements to implement 
a true watershed approach to balancing competing demands for out water 
supplies. The grass roots driven approach which anticipates and plans 
for regulatory requirements, rather than reacting to regulatory 
enforcement is critical to maintain economic stability and cooperative 
working environments.
Summary
    We strongly support the passing of bill HR 3606 authorizing the 
Bureau of Reclamation to participate in the rehabilitation of the 
Wallowa Lake Dam in Oregon and for other purposes. This project has its 
roots in the Wallowa Valley. The local residents developed the 
framework for the project to address current pressing dam safety issues 
as well as anticipating future regulatory requirements. These 
stakeholders have proactively formed a steering committee and invited 
all interested agencies to participate and become part of the solution. 
The stakeholders have a vision beyond the rehabilitation of Wallowa 
Lake Dam and outlined a program which:
    <bullet> LAddresses pressing dam safety issues with Wallowa Lake 
Dam.
    <bullet> LAllocates storage in the Wallowa Lake reservoir to use 
for enhancing fish passage and habitat conditions in the Lostine River 
and Bear Creek.
    <bullet> LProactively identifies fish passage improvements to 
protect existing ESA listed species as well as support future re-
introduction of coho and sockeye salmon.
    <bullet> LAllows for incorporation of a renewable hydroelectric 
power energy source.
    <bullet> LMaintains the agricultural economic base for the 
community.
    <bullet> LEnhances the tourism and recreation economic expansion 
within the valley.
    The Steering Committee initiated the planning and coordination for 
this project prior to the Klamath Falls calamity. The committee 
implemented a cooperative program requesting up front coordination with 
the participating agencies. The proposed project elements represent a 
balance between what is physically, institutionally, and financially 
feasible. This grass roots approach is the foundation to a successful 
project development, implementation, and operation.
                                 ______
                                 
    Mr. Walden. We have been called for legislation. We will go 
for legislation and then come back for questions.
    So Dr. Schnoor, you are next.

 STATEMENT OF JERALD L. SCHNOOR, Ph.D., P.E., DEE, PROFESSOR, 
  CIVIL & ENVIRONMENTAL ENGINEERING, CO-DIRECTOR, CENTER FOR 
 GLOBAL AND REGIONAL ENVIRONMENTAL RESEARCH, THE UNIVERSITY OF 
                              IOWA

    Mr. Schnoor. Thank you. Good morning, Chairman Walden, 
members of the Subcommittee, Congressman Kind. Thank you for 
the invitation to discuss the water quality of the Mississippi 
River and H.R. 3480, the Upper Mississippi River Basin 
Protection Act.
    I am Jerry Schnoor, professor of environmental engineering 
at the University of Iowa and a member of the National Research 
Council's Water Science and Technology Board. I have prepared 
remarks on the need to monitor, model and reduce nutrient and 
sediment loads in the Upper Mississippi River Basin, and I ask 
that the full written statement that I have provided be made a 
part of the record.
    Together with Congressman Kind, I co-chaired a workshop on 
this subject in January 2001, sponsored by the Board of Science 
and Technology Board of the NRC. I was born and reared in 
Davenport, Iowa, performed research on water quality issues on 
the Mississippi River and other places for over 30 years, and I 
have observed the river all my life.
    Permit me to tell you a fish story. When I was 10 years 
old, my uncle ran a smokehouse and a small grocery store near 
Muscatine, Iowa, on the banks of the Mississippi. He taught me 
to fish for large white sturgeon, a strange prehistoric-looking 
fish, but a true delicacy when smoked and savored. 
Unfortunately, the river has changed considerably over the past 
decades. It is no longer possible to catch sturgeon. They have 
been largely extirpated from the river, the victims of soil 
erosion, over-fertilization and wastewater discharges.
    This tension between humans and the environment is neither 
inevitable nor completely irreversible. We must find ways to 
protect the environment, while developing a strong economy. A 
healthy economy and a clean environment can go hand-in-hand, I 
believe, but to do this, we must understand fully the 
environment, technologies for improving it, and human social 
systems.
    The Upper Mississippi River Protection Act seeks to develop 
a coordinated public-private approach to reducing nutrient and 
sediment losses in the Upper Mississippi. It is sorely needed. 
The first steps are to establish a water quality monitoring 
network and mathematical models of the basic processes for 
pollutant fate and transport in the river basin. By cross-
comparisons of sub-basins, it will allow scientists and 
engineers to decipher what management approaches are cost-
effective in reducing sediment and nutrient loads to the river. 
This is a critical need in the Nation's effort to improve water 
quality, impacted to a large extent by nonpoint source runoff 
from the land.
    Since pre-settlement days, about 1850, land cover and land 
use have changed dramatically. In Iowa, for example, my home 
State, 90 percent of the land is now in agriculture. This 
agriculture is the lifeblood of the economy, but we need to 
find ways to harmonize it better with the environment and to 
sustain quality ecosystems.
    Since 1850, we have cleared about two-thirds of the forest 
land, drained 95 percent of the wetlands, and replaced 99 
percent of the native prairies. Such drastic change in land 
cover is bound to influence water quality. Streams have become 
clogged by soil erosion, critical habitat for fish spawning has 
been covered, and species have been lost. Changes in land 
cover, together with the introduction of locks, and dams and 
channelization, have destroyed prime habitat for native aquatic 
organisms.
    What has gone wrong? Well, I would submit that nothing has 
really gone wrong. It is simply that we are in the middle of an 
ongoing effort in adaptive management. Congress recognized the 
need in 1972, with the original Clean Water Act, to address 
nonpoint source pollution, but monitoring data for proper 
assessment and modeling purposes did not exist. Ever since 
then, we have been moving toward assessment of the problem and 
a new program, Total Maximum Daily Loads. This program requires 
the States to perform a new waste load allocation and a load 
allocation for nonpoint source pollution for the first time 
with a margin of safety to recognize uncertainties.
    Basinwide implementation plans will be required and new 
permits will be eventually issued, a process that could take 10 
to 15 years in the future. I believe that monitoring the 
Nation's waters is critically underfunded in this regard, and 
it slows the process. The States are most perplexed by how to 
implement a program without enough data to fulfill modeling 
needs and to perform defensible TMDLs. The Upper Mississippi 
River Protection Act, H.R. 3480, will help to gather this data 
and construct computer models for one of the most ecologically 
and economically important waters in the Nation.
    I strongly support this bill, and thank you for the chance 
to answer any questions.
    [The prepared statement of Mr. Schnoor follows:]

Statement of Jerald L. Schnoor, Ph.D., P.E., DEE, Professor, Civil and 
Environmental Engineering, Co-Director, Center for Global and Regional 
   Environmental Research, The University of Iowa, and Member, Water 
        Science and Technology Board, National Research Council

    Good morning, Chairman Calvert and members of the Subcommittee. 
Thank you for the invitation to discuss water quality of the 
Mississippi River and H.R. 3480, the Upper Mississippi River Basin 
Protection Act. I am Jerry Schnoor, a professor of environmental 
engineering at the University of Iowa and a member of the National 
Research Council's (NRC) Water Science and Technology Board. The 
National Research Council is the operating arm of the National Academy 
of Sciences, National Academy of Engineering, and Institute of 
Medicine, chartered by Congress in 1863 to advise the government on 
matters of science and technology. I have prepared remarks on the need 
to monitor, model, and reduce nutrient and sediment loads in the Upper 
Mississippi River Basin. Together with Congressman Kind, I co-chaired a 
Workshop on this subject in January 2001, sponsored by the Water 
Science and Technology Board of the NRC. I have authored a textbook 
related to this subject, Environmental Modeling: Fate and Transport of 
Pollutants in Water, Air, and Soil (John Wiley and Sons, New York, 682 
pp., 1996), and performed research on water quality issues for almost 
30 years. I am born and reared in Davenport, Iowa, on the Mississippi 
River, and I have observed the river all my life.
    Permit me to tell a fish story. When I was ten years old, my uncle 
ran a smoke-house and small grocery store near Muscatine, Iowa, on the 
banks of the Mississippi River. He taught me to fish for large white 
sturgeon, a strange prehistoric-looking fish, but a true delicacy when 
smoked and savored. Unfortunately, the river has changed considerably 
over the past decades. It's no longer possible to catch sturgeon--they 
have been largely extirpated from the river, the victims of soil 
erosion, over-fertilization, and wastewater discharges. This tension 
between humans and their environment is neither inevitable nor 
completely irreversible. We must find ways to protect the environment 
while developing a strong economy. A healthy economy and a clean 
environment can go hand-in-hand. To do this, we must understand fully 
the environment, technologies for improvement, and human social 
systems.
    The Upper Mississippi Protection Act seeks to develop a coordinated 
public-private approach to reducing nutrient and sediment losses in the 
Upper Mississippi River Basin. It is sorely needed. The first steps are 
to establish a water quality monitoring network and mathematical models 
of the basic processes for pollutant fate and transport in the river 
basin. By cross-comparisons of sub-basins, it will allow scientists and 
engineers to decipher what management approaches are cost-effective in 
reducing sediment and nutrient loads to the river. This is a critical 
need in the nation's effort to improve water quality, impacted to a 
large extent by nonpoint source runoff from the land.
    Since pre-settlement days (circa 1850), land cover and land use 
have changed dramatically. In Iowa, for example, 90% of the land is now 
in agriculture. This agriculture is the li lood of the economy, but we 
need to find ways to harmonize it better with the environment and to 
sustain quality ecosystems. Since 1850, we have cleared about two-
thirds of the forestland, drained 95% of the wetlands, and replaced 99% 
of the native prairies. Such drastic change in land cover is bound to 
influence water quality. Streams have become clogged by soil erosion, 
critical habitat for fish spawning has been covered, and species have 
been lost. Changes in land cover, together with the introduction of 
locks and dams and channelization, have destroyed prime habitat for 
native aquatic organisms.
    In 1972, the Federal Water Pollution Control Act (Clean Water Act), 
P.L. 92-500, sought a goal of ``swimmable and fishable'' waters. After 
spending billions of dollars each year, the nation has benefited 
significantly from secondary treatment of point source discharges 
(municipal and industrial wastewater treatment). The Act established 
the National Pollutant Discharge Elimination System (NPDES) in which 
approximately 70,000 permits have been issued to enforce water quality 
standards. Water quality of the nation's inland waters improved greatly 
during the next 20 years. Unfortunately, those improvements have, for 
the most part, run their course, and we are still short of our goal. In 
the U.S., we have 21,000 waters that are not expected to meet their 
intended uses, even with permitted discharges. Many of these stream and 
lake segments are in the Upper Mississippi River Basin, primarily 
impacted by sediments, nutrients and fecal coliform bacteria. What went 
wrong?
    Nothing really went wrong. It is simply an ongoing effort in 
adaptive management. Congress recognized the need in 1972 to address 
nonpoint source pollution, but monitoring data for proper assessment 
and modeling purposes did not exist. Ever since then, we have been 
moving towards assessment of the problem and a new program, Total 
Maximum Daily Loads (TMDL). This program requires the states to perform 
a new waste load allocation and a load allocation for nonpoint source 
pollution with a margin- of-safety to recognize uncertainties. Basin-
wide implementation plans will be required and new permits will 
eventually be issued, a process that may take 10-15 years. I believe 
monitoring of the nation's waters is critically under-funded and slows 
this process--the states are perplexed by how to implement a program 
without enough data to fulfill modeling needs and perform defensible 
TMDLs. The Upper Mississippi River Basin Protection Act will help to 
gather this data and construct computer models for one of the most 
ecologically and economically important waters in the nation.
    Trends in water quality of the Upper Mississippi River over the 
past 30 years are difficult to delineate with so little data, but some 
general observations can be stated. Nitrate concentrations are getting 
worse in some highly agricultural areas, probably due to increased 
applications of nitrogen fertilizers. Fertilizers are applied at 
application rates larger than the crops can assimilate, and the result 
is runoff of nitrogen valued at more than $300 million per year. The 
trend towards greater density of animals in concentrated animal feeding 
operations (CAFOs) is also accelerating. It is difficult for operators 
to apply manure onto the land in an acceptable manner when the density 
of animals and sheer volume of the manure becomes so great. On the 
other hand, conservation tillage practices on farms have really taken 
hold, and there is some evidence that suspended solids (silt) and total 
phosphorus concentrations may be decreasing (improving).
    That the Upper Mississippi River still fails to meet the goals of 
the Clean Water Act and its intended uses is undeniable. Spawning areas 
are covered with silt by soil erosion, nitrate concentrations exceed 
drinking water standards in many locations, bathing beaches are closed 
due to fecal coliform bacteria in the water, and algae choke many 
waterways due to eutrophication (the excessive rate of addition of 
nutrients). Furthermore, the problems are multiplied by the transport 
of sediments and nutrients downstream, creating a conundrum for the 
Gulf of Mexico.
    ``Gulf Hypoxia'' refers to a zone of low dissolved oxygen in the 
Gulf of Mexico that has grown to 12-17,000 square kilometers since 
1985, roughly the size of Massachusetts. It is probably caused by the 
build-up of nutrients in sediments from algal blooms over the past 50 
years or so. Remember, we said that the nation's inland waters had, for 
the most part, improved during the period 1972-1990s because of the 
Clean Water Act and its amendments. But our nation's coastal waters 
have not improved similarly. We do not understand fully why, but it 
seems there is a time lag associated with sediment anoxia that has 
grown steadily worse due to development of coastal zones and the 
cumulative build-up of nutrients and silt from riverine transport. 
Thus, the problems in the Gulf of Mexico are, to a large extent, the 
problems of the Upper Mississippi River Basin transported downstream. 
It is thought that about 31% of the nutrient loadings to the Gulf come 
from the Upper Mississippi River Basin alone, mainly from agricultural 
runoff. Although it is difficult to document damages in the Gulf at the 
present time, continued growth of the hypoxic zone will eventually 
result in the loss of important fisheries.
    Economic impacts already can be documented in the Upper Mississippi 
River Basin. Dredging of sediments in the navigation channel costs over 
$100 million each year. Farmers lose more than $300 million annually in 
nitrogen fertilizer runoff, and the loss of aquatic habitat and beach 
closings threatens the river's $1.2 billion recreation and $6.6 billion 
tourism industries. The fishing industry, both commercial and 
recreational, has changed substantially in the past 50 years, but it is 
difficult to allocate damages among the many causes of soil erosion, 
agricultural runoff, municipal and industrial wastewater discharges, 
over-fishing, and invasive species. Invasive species are one of the 
thorniest problems nation-wide, a serious by-product of global 
commerce. Zebra mussels, Dreissena polymorpha, were introduced by 
ballast water to the Great Lakes in 1986. They entered the Upper 
Mississippi River Basin a few years later, clogging water intake 
structures and out-competing native mussels for habitat. So far, costs 
of control and eradication have exceeded $138 million. They are not the 
only problems: several carp species including grass, bighead, silver 
and black carp have all been introduced since the 1970s by aquaculture.
    Perhaps the largest data gap and the greatest motivation for H.R. 
3480 are to evaluate Best Management Practices (BMPs). BMPs refer to 
those management practices that could ameliorate agricultural runoff 
and reduce its impact on lakes and rivers. They include conservation 
tillage, grass stripping, riparian zone buffer strips, contour plowing 
and terracing, and wetlands restoration. There is a ``disconnect''--
while most scientists believe that BMPs are what is needed to solve the 
problem of nonpoint pollution, they have precious little data to prove 
it. Some BMP practices are already in place, and a coordinated public-
private program of monitoring and modeling could help to analyze their 
effectiveness. Local, state, and Federal water quality monitoring and 
modeling efforts need to be joined to obtain a comprehensive picture. 
Eventually we will need to control nonpoint sources of pollution in the 
most cost-effective manner. We are embarking on a massive undertaking, 
but Americans deserve nothing less than clean water for drinking, 
fishing, contact recreation, and beautiful, functioning ecosystems.
    One mantra in business is, ``If we can measure it, we can manage 
it. If we can manage it, we should be able to improve it.'' That is the 
impetus for the Upper Mississippi River Basin Protection Act. It should 
be accomplished by the highest qualified professionals, subjected to 
rigorous peer review, and results should be published in the freely 
available literature. I believe that H.R. 3480 provides such a study. 
It addresses a very serious national problem, protection of water 
quality and a natural resource treasure.
    Again, thank you for the opportunity to discuss these issues. I 
would be happy to try to answer any questions you may have.
                                 ______
                                 
    Mr. Walden. Thank you, Doctor.
    We are getting called for a vote, but we will go ahead and 
take two more panelists. We can get this done in about 5 
minutes, and that should give Mr. Kind and I time to sprint 
over and vote, and then come back.
    So let us go now to Doug Daigle, I believe.
    Mr. Daigle, welcome.

STATEMENT OF DOUG DAIGLE, HYPOXIA PROGRAM DIRECTOR, MISSISSIPPI 
                      RIVER BASIN ALLIANCE

    Mr. Daigle. Thank you. My name is Doug Daigle. Mr. Chairman 
and members of the Subcommittee, I welcome the opportunity to 
speak with you about Bill H.R. 3480, the Upper Mississippi 
River Protection Act, authorized by Representative Kind.
    This bill is of particular interest to the organization 
that I represent because it will help address one of the key 
issues that we are dealing with. It is an issue of national 
concern as well, which is nutrient pollution of the river and 
the growth of hypoxia in the northern Gulf of Mexico.
    The Mississippi River Basin Alliance is a nonprofit 
organization, and it has got over 150 member groups along the 
entire length of the river, and we have a real diverse 
membership, shrimpers on the Gulf, farmers in the Midwest. The 
mission is really to protect and restore the health of the 
river system and the communities who depend on it, and the 
organization was founded on the premise that the Mississippi 
River Basin, though large, is really one system, and its 
problems need to be addressed in a basin-like context.
    That is why we adopted the issue of Gulf hypoxia as one of 
our key issues of concern. The concerns about the impacts of 
hypoxia on the most productive fisheries in the lower 48 States 
led to the problem being addressed at the highest levels of the 
U.S. Government, and the White House Office of Science and 
Technology initiated an integrated assessment of hypoxia. There 
was the Harmful Algal Bloom and Hypoxia Research and Control 
Act of 1998, mandating a task force made up of Federal agencies 
with jurisdiction and key States along the river to deal with 
the problem, and they came up with an action plan.
    The action plan called for reducing the frequency, the 
duration, the size and degree of oxygen depletion in the Gulf. 
It provided a basinwide context for doing that and relies on 
incentive-based voluntary efforts for nonpoint sources of 
nitrogen loading, and the existing regulatory controls for 
point sources, but it does more than that because it makes 
clear that the efforts to reduce Gulf hypoxia will also deliver 
improvements to water quality throughout the basin and that 
there is really a reciprocal relationship there, and I will 
quote briefly from the action plan.
    ``While the primary focus of this strategy is on reducing 
nitrogen loads to the northern Gulf, many of the actions 
proposed through this plan will also achieve basinwide 
improvements in surface water quality. Likewise, actions taken 
to address local water quality problems in the basin will 
frequently also contribute to reductions in nitrogen loadings 
to the Gulf.''
    So this brings us to the importance of H.R. 3480. The 
action plan identifies priorities of research and monitoring 
necessary to support its goals, and it has a framework of 
adaptive management, based on implementation, monitoring and 
research, so they could address known problems, clarify 
scientific uncertainties and evaluate the effectiveness of the 
efforts to reduce hypoxia.
    The expanded monitoring network for sediment and nutrient 
loss in the Upper Mississippi River Basin proposed by H.R. 3480 
has the potential to significantly aid and complement 
implementation of the Gulf Hypoxia Action Plan with the upper 
river, and it also is going to help us by integrating data from 
all sources, and the consultation and collaboration with other 
public and private monitoring efforts that it has called for 
are going to be a tremendous aid as well.
    We want to discuss this bill today. We should recognize, as 
well, as we discuss it, we would be remiss if we didn't 
recognize some other events that could affect its success and 
the success of the action plan and that measure. The proposed 
budget reductions for Fiscal Year 2003 for the U.S. Geological 
Survey would negatively impact water data collection, water 
quality research and assessments, and university-based 
education and research-related water systems.
    As our discussions about 3480 illustrate today, these 
proposed reductions are really shortsighted. The work of the 
USGS is too important and our need for it is too great to 
really trade that all for some short-term fiscal gain from 
reducing the budgets of those programs.
    A couple of weeks ago, the Gulf Hypoxia Task Force met in 
St. Louis, a very constructive meeting. They are willing to 
work, but they need funding, and this type of bill is just the 
type of measure that could help bring success to their efforts 
and to similar efforts throughout the basin.
    Thank you.
    [The prepared statement of Mr. Daigle follows:]

 Statement of Doug Daigle, Hypoxia Program Director, Mississippi River 
                      Basin Alliance, on H.R. 3480

    Dear Mr. Chairman and members of the Subcommittee,
    I welcome the opportunity to speak to you regarding the bill H.R. 
3480, the ``Upper Mississippi River Protection Act'', authored by 
Representative Ron Kind of Wisconsin. This bill is of particular 
interest to the organization I represent, the Mississippi River Basin 
Alliance (MRBA), because it will help to address one of our key issues 
of concern, as well as a major problem facing the basin and the 
country, which is nutrient pollution in the river system and growth of 
hypoxia in the northern Gulf of Mexico.
    MRBA is a non-profit organization with over 130 member groups along 
the length of the river. Our main office is in Minneapolis, and 
regional offices are located in St. Louis and New Orleans. The mission 
of MRBA is to protect and restore the health of the river system and 
the communities who depend on it. The founding of the organization was 
premised on the realization that the Mississippi River, though large, 
was one system and that its problems needed to be addressed in a basin-
wide context.
    MRBA adopted the hypoxic zone in the Gulf of Mexico as one of its 
key issues for just this reason. A substantial body of scientific 
research has described the process by which this zone of low oxygen 
manifests itself in Louisiana's coastal waters. <SUP>1</SUP> The 
occurrence of the hypoxic zone is a result of interactions of nutrients 
such as nitrogen carried by the Mississippi River, channelization of 
the river and loss of riverine wetlands in the basin, and the 
stratification of fresh and salt water layers in the Gulf. Over half of 
the nitrate load in the Mississippi enters above its confluence with 
the Ohio.
---------------------------------------------------------------------------
    \1\ See Integrated Assessment of Hypoxia in the Northern Gulf of 
Mexico, May 2000. National Science and Technology Council Committee on 
Environment and Natural Resources, Washington, DC; also see Rabalais, 
Turner, and Scavia, ``Beyond Science into Policy: Gulf of Mexico 
Hypoxia and the Mississippi River,'' Bioscience Vol. 52, no. 2, 
February 2002.
---------------------------------------------------------------------------
    The highest nitrogen loads enter the river from basins in the upper 
Midwest. The majority of the nitrogen is believed to come from non-
point sources, such as agricultural runoff, although municipal and 
industrial wastewater and (to a lesser extent) atmospheric deposition 
of nitrates from fossil fuel combustion also make a contribution.
    A simplified description of the process by which hypoxia forms off 
Louisiana's coast would run as follows: extensive nutrient loading from 
the Mississippi and Atchafalaya Rivers fuels the growth of large algal 
blooms offshore. As the algae dies and sinks through the water column, 
its decomposition leads to the depletion of oxygen, primarily in the 
lower, saltier layer of water. As oxygen levels drop below 2 milligrams 
per liter, marine life is unable to survive. Mobile organisms such as 
fish and shrimp migrate out of the hypoxic area if they can, while 
benthic (bottom-dwelling) organisms die off. Since systematic 
scientific mapping of the Gulf hypoxic zone began in 1985, the size 
that it can attain has more than doubled, from roughly 4000 square 
miles in 1991 to 8000 square miles in the summer of 2001. <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Dr. Nancy Rabelais, Louisiana Universities Marine Consortium, 
Press release, July 26, 2001.
---------------------------------------------------------------------------
    Concerns about the growth of this hypoxic zone, one of the largest 
in the world, center around its effects on the Gulf ecosystem, which 
sustains the most productive fishery in the lower 48 states. The rich 
fisheries off Louisiana's coast are in an already precarious position 
because of the dramatic ongoing loss of the state's coastal wetlands. 
As coastal marshes erode and break up, they dispense large amounts of 
detritus into the water, which fuel higher populations and harvests of 
fish and shrimp, but on a one-time basis. At some point, the loss of 
marsh habitat, so vital for the life-cycles of estuarine seafood, will 
lead to a sharp decline in those populations and the harvest levels. 
<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ For information on Louisiana's coastal crisis and restoration 
program, see Coast 2050: Towards a Sustainable Coastal Louisiana, 
Coastal Wetlands Conservation Task Force (www.lacoast.gov)
---------------------------------------------------------------------------
    These concerns led to the hypoxia issue being addressed at the 
highest levels of the U.S. government. Under the Clinton 
administration, the White House Office of Science and Technology Policy 
initiated the Integrated Assessment of Hypoxia in the Northern Gulf of 
Mexico (completed in 2000), and with the additional mandate provided by 
the Harmful Algal Bloom and Hypoxia Research and Control Act of 1998 
<SUP>4</SUP>, the Mississippi River/Gulf of Mexico Watershed Nutrient 
Task Force (hereafter referred to as the ``Task Force'') convened 
representatives of jurisdictional Federal agencies and the governments 
of states along the river to create an action plan to reduce the growth 
of hypoxia in the Gulf.
---------------------------------------------------------------------------
    \4\ Title VI of Public Law 105-383, section 604 (b), November 13, 
1998.
---------------------------------------------------------------------------
    The Task Force worked for two years in an often contentious 
atmosphere, since farm states in the Midwest were understandably 
concerned about the potential economic impacts on their agricultural 
sectors of remedies to reduce Gulf hypoxia. As someone who participated 
in the process as an observer and public commenter, I can say that it 
was a significant learning experience for all involved. At the end of 
that process, the Task Force fulfilled its charge and reached consensus 
on a plan.
    The Action Plan for Reducing, Mitigating, and Controlling Hypoxia 
in the Northern Gulf of Mexico (hereafter referred to as the ``Action 
Plan'') lays out a national strategy to reduce ``the frequency, 
duration, size, and degree of oxygen depletion'' of the hypoxic zone. 
<SUP>5</SUP> The Action Plan provides a basin-wide context for 
achieving this goal, relying on incentive-based, voluntary efforts for 
non-point sources of nitrogen loading, and existing regulatory controls 
for point sources.
---------------------------------------------------------------------------
    \5\ The Action Plan can be viewed at www.epa.gov/msbasin.
---------------------------------------------------------------------------
    Yet it does more than that. The Action Plan also makes clear that 
efforts to reduce Gulf hypoxia will deliver improvements to water 
quality throughout the basin:
        ``water quality throughout the Mississippi [river basin] has 
        been degraded by excess nutrients. Most states in the basin 
        have significant river miles impaired by high nutrient 
        concentrations, primarily phosphorus [and] excess nitrate, 
        which can be a human health hazard.'' <SUP>6</SUP>
---------------------------------------------------------------------------
    \6\ Action Plan, p. 7.

        ``While the primary focus of this strategy is on reducing 
        nitrogen loads to the northern Gulf, many of the actions 
        proposed through this plan will also achieve basinwide 
        improvements in surface-water quality'' Likewise, actions taken 
        to address local water quality problems in the basin will 
        frequently also contribute to reductions in nitrogen loadings 
        to the Gulf.'' <SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ Action Plan, p.8.
---------------------------------------------------------------------------
    This brings us to the importance of H.R. 3480, the ``Upper 
Mississippi River Protection Act'' introduced by Representative Kind. 
The Action Plan identifies as priorities the research and monitoring 
necessary to support its goals. Its approach of adaptive management is 
based on ``implementation, monitoring, and research, to address known 
problems, clarify scientific uncertainties, and evaluate the 
effectiveness of efforts to reduce hypoxia.'' <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ Ibid., p.4
---------------------------------------------------------------------------
    The expanded monitoring network for sediment and nutrient loss in 
the Upper Mississippi River Basin proposed by H.R. 3480 has the 
potential to significantly aid and complement implementation of the 
Gulf Hypoxia Action Plan in that region. In particular, H.R. 3480 could 
aid the Task Force in carrying out one of the actions called for in the 
Plan for this year:
        ``By Spring 2002, States, Tribes, and Federal agencies within 
        the Mississippi and Atchafalaya River Basins will expand the 
        existing monitoring efforts within the Basin to provide both a 
        coarse resolution assessment of the nutrient contribution of 
        various sub-basins and a high resolution modeling technique in 
        these smaller watersheds to identify additional management 
        actions to help mitigate nitrogen losses to the Gulf and 
        nutrient loadings to local waters.'' <SUP>9</SUP>
---------------------------------------------------------------------------
    \9\ Ibib., p.13.
---------------------------------------------------------------------------
    Expanded monitoring programs throughout the basin are critical as 
well to the ongoing effort to reduce Gulf hypoxia (and to improve state 
and local water quality):
        ``Effective implementation of [the Action Plan] will require a 
        monitoring strategy that measures progress towards achieving 
        both long-term and short-term goals. Feedback from such a 
        monitoring strategy will facilitate an adaptive management 
        framework that enables continual improvement of the Action Plan 
        with increasing knowledge of the factors and processes 
        controlling nutrient losses, their effects...and the 
        effectiveness of management actions.'' <SUP>10</SUP>
---------------------------------------------------------------------------
    \10\ Ibid., p.23.
---------------------------------------------------------------------------
    These considerations make clear the importance of the integration 
of data from all sources, and the consultation and collaboration with 
other public and private monitoring efforts called for in Sections 103 
and 104 of H.R. 3480. <SUP>11</SUP> Just as critical is the integration 
of data into modeling and research, as called for in Title II, Sections 
201, 202, and 203 of H.R. 3480. Again, there is significant potential 
for aiding and complementing implementation of the Gulf Hypoxia Action 
Plan, while accurately gauging the effectiveness of water quality 
improvements in the Upper Mississippi River Basin:
---------------------------------------------------------------------------
    \11\ Section 103 (a), (b), (c), (d), and Section 104, respectively, 
H.R. 3480.
---------------------------------------------------------------------------
        ``[The Action Plan] strategy must quantify environmental trends 
        and include periodic data analysis, interpretation, and 
        reporting to all stakeholders that are involved with design and 
        implementation of management, remediation, and restoration 
        actions...Analysis and interpretation must use models that 
        integrate knowledge across scales and hydrologic compartments 
        from the smallest watersheds to the Mississippi and Atchafalaya 
        River Basins and the Gulf of Mexico.'' <SUP>12</SUP>
---------------------------------------------------------------------------
    \12\ Action Plan, p.25.
---------------------------------------------------------------------------
    While we discuss today the opportunities provided by the Action 
Plan and H.R. 3480, we would be remiss not to bring into focus other 
issues that could affect the success of those and similar efforts. The 
President's proposed budget for Fiscal Year 2003 envisions significant 
reductions to the budget of the U.S. Geological Survey. Proposed 
reductions to funding for USGS Water Programs would negatively impact 
water data collection, water quality research and assessments, and 
university-based education and research related to water systems.
    As our discussions today demonstrate so clearly, these proposed 
reductions are ill-advised and short-sighted. The work of the USGS and 
the pressing need for timely data and ``sound science'' dwarf whatever 
small fiscal gains might be achieved by cutting those programs, and are 
far too important to relegate to some unspecified future date. We need 
them now, today, and in the future.
    The Gulf Hypoxia Action Plan was submitted to Congress in January 
of 2001. The change of administrations and the turnover of top-level 
agency participants on the Task Force led to virtually no action on 
implementation being taken during most of 2001. The Task Force 
reconvened on February 7-8, 2002 in St. Louis for a constructive and 
positive meeting at which they reiterated the common ground they had 
attained and the resolve to act. Unfortunately, the challenge facing 
them has grown significantly. The funding situation at the Federal 
level is far more complicated than it was a year ago, and most states 
face budgets that are becoming progressively tighter.
    The Task Force will need to be creative and persistent in its 
efforts, and they will need the help of stakeholders as well as state 
and Federal Governments.
    The Mississippi River Basin Alliance is committed to progress on 
the problem of hypoxia, and to cooperation throughout the basin on 
issues that affect the future of the river and the many people who 
depend on it, from farmers in the Midwest to shrimpers on the Louisiana 
coast.
    One of several hopeful notes at the recent St. Louis meeting came 
from a number of presentations that were made to the Task Force about 
innovative strategies for nutrient management, wetland restoration, and 
on-farm conservation. <SUP>13</SUP> There is no shortage of new ideas 
coming from universities, non-governmental organizations, and farmers, 
but all of them will require monitoring and modeling efforts to gauge 
both their effectiveness and how our limited resources can best be 
spent.
---------------------------------------------------------------------------
    \13\ These included Dr. Donald Hey of the Wetlands Initiative in 
Chicago, Dr. Suzie Greenhalgh of World Resources Institute, and Dr.s 
John Day and Bill Mitsch of Louisiana and Ohio State Universities, 
respectively. For a summary of the ``suite'' of actions available to 
address hypoxia, see the Action Plan as well as ``Reducing Nitrogen 
Loading to the Gulf of Mexico from the Mississippi River Basin: 
Strategies to Counter a Persistent Ecological Problem,'' Mitsch, et.al, 
Bioscience Vol. 52, No. 5, May 2001.
---------------------------------------------------------------------------
    Collaboration and coordination will be essential not only to 
progress on implementation of the Action Plan and reduction of Gulf 
hypoxia, but to improvement of water quality throughout the basin. One 
of the most exciting things about the Action Plan is that it provides a 
context for the beginning of basin-wide cooperation among states in the 
Mississippi Valley. H.R. 3480 can be an important part of this wider 
effort. This is a significant opportunity that should be grasped.
                                 ______
                                 
    Mr. Walden. Thank you very much.
    Now we will hear from Ms. Holly Stoerker. Ms. Stoerker, 
thank you for being here. We welcome your testimony.

    STATEMENT OF HOLLY STOERKER, EXECUTIVE DIRECTOR, UPPER 
              MISSISSIPPI RIVER BASIN ASSOCIATION

    Ms. Stoerker. Thank you.
    Good morning, Mr. Chairman and members of Subcommittee. My 
name is Holly Stoerker, and I am the executive director of the 
Upper Mississippi River Basin Association, which is an 
organization that was formed 20 years ago by the Governors of 
the States that border the upper river, and those would include 
Minnesota, Wisconsin, Illinois, Iowa, and Missouri.
    I would certainly like to thank Representative Ron Kind for 
his leadership in addressing this very important issue of 
sediment and nutrients on our basin. I think it has been 
probably 30 years' worth of reports that I have read about our 
basin, and every single one of them lists sedimentation as the 
single most important problem.
    And so in recognition of that, which is both an 
environmental problem because it fills in backwater areas on 
our river, but it is also an economic problem because the Corps 
of Engineers has to dredge a channel for commercial navigation 
and get that sediment out of there, so we have an economic and 
an environmental problem.
    And as Doug Daigle pointed out, we also have an 
environmental problem in the Gulf of Mexico with regard to 
hypoxia, which is, in large part, caused by nutrients from the 
Mississippi River Basin.
    I am here today on behalf of the States of this basin with 
a very simple message, and that is that we need what H.R. 3480 
is seeking to do; in particular, an integrated monitoring 
network, under the leadership of the U.S. Geological Survey, to 
monitor nutrients and sediments in our basin.
    We need this for a number of reasons. We need to target our 
investments in our basin, our investments in land conservation, 
in water quality efforts, and wetlands protection, and to do 
that we need good, sound science. And then we need this kind of 
monitoring system so that we can figure out whether those 
investments have really made a difference over time, and we are 
only going to know that if we keep track of that over time.
    At this point, I would like to simply reemphasize the 
letter that Representative Kind introduced into the record from 
six Governors. This was a letter last October that--a 
tripartisan letter, I should emphasize--from last October that 
the Governors sent to Bush administration officials, declaring 
their support for the actions recommended in the Hypoxia Action 
Plan, and, in particular, as Mr. Kind pointed out, they do, in 
fact, call for ``a monitoring effort conducted jointly by the 
U.S. Geological Survey and the States.'' Well, I guess, in my 
view, that is exactly what H.R. 3480 is, in fact, seeking to 
do.
    Our organization has testified twice now. This will be the 
third time on this bill, previous versions, including an 
appearance 2 years ago before this Subcommittee, and while the 
bill has undergone a number of changes over this period of 
time, I think we really do have a very sound piece of 
legislation here and one which I would encourage this 
Subcommittee to endorse and move quickly to the House Floor.
    Our written testimony, which I guess I assume will be 
included in the record--
    Mr. Walden. Yes, it will.
    Ms. Stoerker. --makes a number of points, specific points, 
about the bill, most of which simply set forth the States' 
expectations and assumptions, frankly, about how this kind of a 
program would be implemented, given the expectation that we are 
going to be able to move it forward.
    I will let you just simply reflect on those specific points 
at your leisure, but before I close, I do want to make one very 
important point, and it is one that I think my colleagues here 
at the table have already made, which is that establishing a 
new USGS monitoring and modeling program in our basin should 
not come at the expense of existing programs and funding.
    For example, we cannot assess nutrient and sediment 
transport in our rivers and streams unless we have good flow 
data. And the USGS Fiscal Year 2003 budget calls for a 
reduction of $2.1 million in the National Streamflow 
Information Program, which is going to result nationwide in 129 
stream gauges being lost, nine of which are in our basin. 
Similarly, the cuts to the Toxic Substances Hydrology Program, 
where we are doing current nutrient research, is particularly 
devastating.
    So I would urge this Committee to also help us on that 
front to maintain the good work that the U.S. Geological Survey 
is already doing.
    And so with that, I will close. Thank you again, and I 
certainly underscore our members' strong support for this bill.
    [The prepared statement of Ms. Stoerker follows:]

  Statement of Holly Stoerker, Executive Director, Upper Mississippi 
                        River Basin Association

    Good morning. Thank you, Chairman Calvert and Members of the 
Subcommittee, for this opportunity to appear before you. My name is 
Holly Stoerker and I am Executive Director of the Upper Mississippi 
River Basin Association (UMRBA). The Governors of Illinois, Iowa, 
Minnesota, Missouri and Wisconsin formed the UMRBA in 1981 to 
coordinate the state agencies' river-related programs and policies and 
to work with Federal agencies on regional issues. On behalf of our 
member states, I am quite pleased to offer the following comments 
regarding the Upper Mississippi River Basin Protection Act (H.R. 3480).
Overview
    The Upper Mississippi River Basin Association (UMRBA) is a strong 
supporter of efforts to reduce sediment and nutrients in the basin. As 
such, the UMRBA enthusiastically supports the Upper Mississippi River 
Basin Protection Act (H.R. 3480).
    The UMRBA applauds the leadership of Representative Ron Kind and 
the Upper Mississippi River Congressional Task Force in addressing 
water resource needs in the basin and their commitment to providing 
sound scientific data upon which to make water resource management 
decisions. The UMRBA has worked closely with the sponsors of H.R. 3480 
on previous versions of the legislation including H.R. 4013 in the 
106th Congress and H.R. 1800 in the 107th Congress. While H.R 3480 is 
narrower in scope than its predecessors, it is significantly improved. 
In large part, these improvements are the result of Representative Ron 
Kinds' willingness to work closely with state and Federal water 
management agencies, as well as stakeholders in the basin.
The Importance of Monitoring and Modeling
    Both sediment and nutrients have a profound affect on the quality 
of lakes, rivers, and streams throughout the Upper Mississippi River 
Basin. Sediment fills in valuable wetlands and streams throughout the 
basin, as well as the unique backwater habitats and navigation channel 
of the Mississippi River. Excess nutrients degrade water quality, 
impairing rivers and streams and threatening ground water supplies. In 
addition, excess nutrients from the Mississippi River Basin have been 
linked to oxygen depletion in the Gulf of Mexico, resulting in what is 
known as Gulf hypoxia. Meeting these challenges will require 
significantly enhancing our understanding of sediment and nutrient 
sources, mobilization, and transport. The monitoring and modeling 
program authorized in H.R. 3480 is not a scientific luxury; it is a 
management imperative. The data and information that results from these 
efforts will help guide Federal, state, and local programs designed to 
solve the very real problems of water quality and habitat degradation. 
Targeting our efforts to restore wetlands, reduce nonpoint pollution, 
and help agricultural producers apply best management practices, 
depends on good scientific data.
    The need for enhanced sediment and nutrient monitoring in the Upper 
Mississippi River Basin is widely recognized. In the January 2001 
``Action Plan for Reducing, Mitigating, and Controlling Hypoxia in the 
Northern Gulf of Mexico,'' state and Federal agencies participating in 
the Mississippi River/Gulf of Mexico Watershed Nutrient Task Force 
called for ``increasing the scale and frequency of monitoring of both 
the extent of the hypoxic zone and the sources of nutrients and 
conditions of waters throughout the basin.'' In an October 23, 2001 
letter to Bush Administration officials, six Governors of Mississippi 
River Basin states urged that Federal programs to reduce nutrient 
inputs be enhanced. In this regard, the Governors state that a 
``monitoring effort conducted jointly by the U.S. Geological Survey and 
the states is required within the basin to determine the water quality 
effects of the actions taken and to measure the success of efforts on a 
sub-basin and project level.'' H.R. 3480 reflects just the type of 
increased monitoring effort that has been proposed by both the Task 
Force and the Governors.
Specific Comments on H.R. 3480
    <bullet> LSediment and Nutrient Monitoring Differences--The 
monitoring network and modeling efforts described in H.R. 3480 are 
designed to address both sediment and nutrients. However, the sources, 
transport, delivery, and impacts of sediment and nutrients are not 
identical and will require different monitoring and modeling 
approaches. Moreover, there are natural baseline levels of sediment and 
nutrients that would occur without human activity. For many waterbodies 
in the basin, acceptable levels of sediment and nutrient impairment 
have not been identified. While it may not be necessary for the 
legislation to explicitly acknowledge or accommodate these 
considerations, they will be critical in the design of the monitoring 
network and in development of the models. In part, this is why Section 
104 of the bill is a key provision. Section 104 requires that USGS 
collaborate with other Federal agencies, states, tribes, local units of 
government, and private interests in establishing the monitoring 
network. Such collaboration should help ensure that the design of the 
monitoring network yields data that is relevant to both sediment and 
nutrient management issues.
    <bullet> LRelationship to Mississippi River/Gulf of Mexico 
Watershed Nutrient Task Force--The Mississippi River/Gulf of Mexico 
Watershed Nutrient Task Force is the joint Federal/state body that 
developed the Hypoxia Action Plan published in January 2001. At its 
most recent meeting on February 8, 2002, the Task Force's Coordination 
Committee agreed to work with USGS to establish a ``framework'' for 
nutrient monitoring in the Mississippi River watershed and Gulf of 
Mexico. That framework is to be presented to the Task Force at its next 
meeting in August 2002. It is our expectation that the monitoring 
network authorized in H.R. 3480 be designed and implemented consistent 
with the framework already under development by the Task Force.
    <bullet> LCost-Sharing--The states are pleased that the cost-
sharing requirements in Section 105 provide that up to 80 percent of 
the nonfederal share may be provided through in-kind contributions and 
that existing state and local monitoring efforts may be applied to the 
nonfederal share. Given the geographic scope of the basin and the 
complex array of potential nonfederal partners, aggregating 
contributions to ensure compliance with the bill's cost sharing 
requirements would seem to pose significant challenges. Nevertheless, 
it is significant that H.R. 3480 recognizes the value of state and 
local monitoring.
    <bullet> LAdditional New Funding--Section 301 of H.R. 3480 
authorizes annual appropriations of $6.25 million for this new 
monitoring and modeling effort. It will be imperative that this funding 
represent additional new resources rather than a redirection of 
existing resources. H.R. 3480 emphasizes integration of existing 
monitoring efforts and use of existing data, a strategy that will 
certainly help to leverage scarce resources. However, integration of 
existing efforts is not a substitute for a real increase in the level 
of effort. And most importantly, this increased effort must not come at 
the expense of other important USGS programs such as the National Water 
Quality Assessment Program (NAWQA) or the National Streamflow 
Information Program (NSIP). In particular, streamgaging supported by 
NSIP provides flow data that will be critical to successfully 
monitoring and modeling sediment and nutrient loads. We cannot afford 
to lose any of that streamflow data, and in fact will likely need to 
increase flow monitoring. It is particularly troubling that, in fact, 
the President's Fiscal Year 03 budget proposes deep cuts to existing 
monitoring efforts in the basin, including current USGS water programs, 
as well as the Corps of Engineers' Upper Mississippi River 
Environmental Management Program. Such cuts will severely limit USGS' 
ability to undertake the new monitoring responsibilities proposed in 
H.R. 3480.
    <bullet> LNational Research Council Assessment--Section 107 of H.R. 
3480 directs the National Research Council of the Academy of Sciences 
to conduct a ``comprehensive water resources assessment of the Upper 
Mississippi River Basin.'' In the context of this legislation, it is 
our assumption that such an assessment would be focused on the specific 
water quality issues associated with sediment and nutrients. As such, 
it would potentially provide important input to the scoping and 
implementation of the monitoring and modeling authorized in H.R. 3480.
                                 ______
                                 
    Mr. Walden. Thank you for your testimony. The Committee 
will go into recess at this point until after our votes. We 
have a motion on a previous question, which tells me we will 
probably have another one right after that, so it may be 15 or 
20 minutes before we are back. So we will be back, and we look 
forward to this line of testimony and then question and 
answers.
    Thank you. We are in recess.
    [Recess.]
    Mr. Walden. I would like to bring the Subcommittee back to 
order. We will conclude this morning's hearing with our final 
witness, Dr. John McLachlan.
    My colleague, Mr. Kind, is on his way back, so please go 
ahead.

      STATEMENT OF JOHN A. McLACHLAN, Ph.D., WEATHERHEAD 
DISTINGUISHED PROFESSOR OF ENVIRONMENTAL STUDIES, PROFESSOR OF 
 PHARMACOLOGY, DIRECTOR, CENTER FOR BIOENVIRONMENTAL RESEARCH, 
                 TULANE AND XAVIER UNIVERSITIES

    Mr. McLachlan. Thank you very much.
    Mr. Chairman and members of the Subcommittee, I am Dr. John 
McLachlan, the Weatherhead distinguished professor of 
environmental studies at Tulane University and director of the 
Center for Bioenvironmental Research at Tulane and Xavier 
Universities in New Orleans, and we are the founding partner of 
the Long-Term Estuary Assessment Group, which ``acronymsially'' 
we call LEAG.
    Our Center was founded in 1989 and is a New Orleans-based 
scientific research and educational partnership between Tulane 
and Xavier Universities, focusing on environmental and public 
health issues, with particular emphasis on the lower 
Mississippi River and the Gulf of Mexico.
    In 1999, we teamed with the Navy Office of Oceanographic 
Research, the Office of Naval Research, the USGS and a variety 
of other academic and private organizations to form the Long-
Term Estuary Assessment Group. The purpose is to seek better 
understanding of the complex Mississippi River/Gulf of Mexico 
estuary system and its resources.
    I am here as a representative of just a poor Southern 
State, and the poorest of the poor, at the very end of the line 
of the river, but we just want to make sure that researchers 
and people living in this region, that the down-river aspects 
and perspectives are put into H.R. 3480.
    So we would like to just thank you sincerely for giving us 
the opportunity to provide these down-river perspectives and to 
make the point that we think that any of the Upper Mississippi 
deliberations should be done by involving and having the 
participation of the Lower Mississippi River Basin.
    We support, as a group, the H.R. 3480. The bill promotes 
scientific efforts to manage sediment and nutrient loss in the 
Upper Mississippi River, with the eventual goal of reducing 
this load on the river. These efforts are good for both the 
Upper and Lower Mississippi and for the Nation. From a lower 
river perspective, we note the following advantages of H.R. 
3480:
    First, the ``dead zone.'' Under natural circumstances, the 
Mississippi River delivers nutrients to the Gulf of Mexico, 
which stimulate the biological production upon which Gulf 
fisheries depend. Excess nutrients, namely, nitrogen 
fertilizers, enable algae growth in the Gulf to grow to 
dangerous levels. We support the efforts of H.R. 3480 to reduce 
the nutrients in the river.
    Secondly, in terms of dredging, under natural conditions, 
sediments are deposited upon Southern Louisiana during periodic 
floods at the river's mouth. With the construction of flood 
control levees, such sediment now accumulates in the river. 
H.R. 3480 seeks to monitor and eventually reduce sediment load, 
and we applaud this.
    Third, nonpoint-source pollution. A reduction of sediments 
and nutrients in the Upper Mississippi has the parallel benefit 
of reducing the quantity of agricultural, chemical, household 
pollutants, urban runoff and bacteria reaching the river. Less 
sediment means fewer particles to which these contaminants can 
bind. These are all benefits to the Lower Mississippi region.
    From the lower river perspective, we view the impact of 
H.R. 3480 as primarily beneficial. We offer a few caveats, not 
as problems with the bill, but as suggestions which recognize 
the connection of the entire river system.
    First, what is the optimal level of nutrients for the Gulf? 
Further research toward understanding the optimal level of 
nutrients reaching the Gulf of Mexico, so as not to create or 
maintain a ``dead zone,'' can help us set realistic targets in 
reducing nutrients in the Upper Mississippi.
    Second, sediment flux. Our understanding of sediment flux 
in the Lower Mississippi, a river highly controlled by men and 
artificial means, will be affected by changes in sediment 
runoff in the upper river. Correlating the lower river's fluxes 
in sediment and death with changes in the upper river's 
sediment load can aid in our understanding of how this 
critically important natural feature functions.
    Third, invasive species. Over a decade ago, zebra mussels 
from the Caspian Sea arrived in North America via ballast water 
dumped by ships in the Great Lakes region. Since then this 
species has invaded the entire Mississippi River and are on 
their way to New Orleans, causing significant damage to 
utilities and industrial facilities. We see the Mississippi as 
a pathway for biological pollutants, both up and down river, 
and one that can be costly, as costly as excess nutrients and 
sediment.
    Fourth, the impact of this bill on Louisiana's Freshwater 
Diversion Projects. To reverse saltwater intrusion and coastal 
erosion, Federal and State agencies have constructed several 
costly freshwater diversion projects along the lower river. We 
suggest that H.R. 3480 provide for scientific assessments of 
the impact of reduced sediment and nutrient loads on these 
freshwater diversions.
    Finally, we would propose in our support of the bill that 
our position on the Mississippi in New Orleans offers a unique 
perspective on the connection of the entire river system, and 
we literally live on the land that has been eroded from the 
upper basin and drink the water drained from it.
    In this regard, we note for the Subcommittee that our 
Center is currently creating a National Center for the 
Mississippi River in New Orleans and is actively in partnership 
with numerous up-river organizations. In this spirit, we 
suggest including in H.R. 3480 a Mississippi River Summit to be 
held in our nascent National Center for the Mississippi River 
in New Orleans to coordinate research and activities on both 
the Upper and the Lower Mississippi Basin.
    Thank you very much. I am happy to take questions.
    [The prepared statement of Mr. McLachlan follows:]

      Statement of Dr. John McLachlan, Director of the Center for 
       Bioenvironmental Research, Tulane and Xavier Universities

Introduction
    Mr. Chairman and members of the Subcommittee, I am Dr. John 
McLachlan, Director of the Center for Bioenvironmental Research (CBR) 
at Tulane and Xavier Universities in New Orleans, Louisiana, and 
founding partner of the Long-Term Estuary Assessment Group (LEAG).
Background of CBR and LEAG
    Founded in 1989, the CBR is a New Orleans-based scientific research 
and education partnership between Tulane and Xavier Universities, 
focusing on environmental and public health issues with a particular 
emphasis on the lower Mississippi River region. The CBR specializes in 
researching the ecological and human-health impact of chemical 
pollutants, environmental and geological conditions of the lower 
Mississippi River and Gulf of Mexico, environmental signals and 
sensors, and related issues such as biosensor technology, invasive 
species, long-term stewardship of contained pollutants, and information 
technology for environmental management. World renowned for its 
progressive, multidisciplinary research on aquatic ecosystems, the CBR 
has a full-time staff of 27 employees and over 80 affiliated 
researchers in fields ranging from biology to geology, from toxicology 
to engineering. Current and upcoming funding for the CBR comes from the 
Department of Energy, Office of Naval Research, U.S. Geological Survey, 
National Oceanic and Atmospheric Administration, Environmental 
Protection Agency, U.S. Department of Agriculture, Department of Health 
and Human Services, and private foundations.
    In 1999, the CBR teamed with the Naval Oceanographic Office, 
National Oceanographic and Atmospheric Administration, and a number of 
academic, state, and private organizations to form the Long-Term 
Estuary Assessment Group (LEAG). LEAG (described as the Lower Estuary 
Assessment Group in H.R. 3480) seeks a scientific understanding of the 
complex Mississippi River / Gulf of Mexico estuary system, how it 
functions, its resources and threats to its health, and how it can help 
develop technologies and systems for the benefit of the nation. LEAG 
views the Mississippi River / Gulf of Mexico estuary as one of 
America's greatest natural laboratories, offering nationally important 
resources and reflecting the activities of millions of Americans in a 
vast drainage basin.
    As researchers of the lower Mississippi River, the CBR and LEAG 
offer unique perspectives on the Upper Mississippi River Basin 
Protection Act of 2001 (H.R. 3480).
Upper Mississippi River Basin Protection Act of 2001: Our Perspective 
        from Downriver
    We support H.R. 3480. H.R. 3480 promotes scientific efforts to 
manage sediment and nutrient loss in the upper Mississippi River and 
Illinois River basins'that is, those parts of Minnesota, Wisconsin, 
Illinois, Iowa, and Missouri draining into these rivers between Cairo, 
Illinois and the headwaters of the Mississippi.
    Specifically, H.R. 3480 establishes an integrated program to 
monitor and model the nutrient and sediment load of the upper 
Mississippi River, with the ultimate goals of reducing (1) the erosion 
of these resources from the upper basin and (2) the releases of these 
constituents to the lower Mississippi and the extended estuary of the 
Gulf of Mexico.
    We offer here our perspectives--as scientists and residents of the 
lowest part of the Mississippi River--on the benefits of this bill, as 
well as our suggestions and recommendations for improving it. But more 
importantly, we wish to communicate to the Subcommittee the importance 
of keeping those Americans living along the lower Mississippi River 
involved and participating in upper-Mississippi legislation and 
management, for, as we all know, downriver communities feel each and 
every impact upon the river, for better or worse.
    While the focus of this bill is the upper Mississippi River basin, 
its impact will be felt equally, if not more so, by those Americans who 
live along the lower Mississippi River, and whose quality of life 
depends in no small part on the environmental health of the Mississippi 
River / Gulf of Mexico estuary.
    We offer these observations of this bill--the pros and cons--from 
our ``downriver'' perspective, as scientists researching the Delta 
region, and as residents of the New Orleans area, a city whose land 
base was created by the Mississippi, whose economy is dependent on the 
Mississippi, and whose unique culture is largely a product of the 
Mississippi.
The Pros
    From a lower-river perspective, we see the following ``pros'' of 
H.R. 3480:
1. Dead Zone
    Under natural circumstances, the Mississippi River delivers 
nutrients to the Gulf of Mexico, which stimulate the biological 
production upon which gulf fisheries depend. Too much of a good thing, 
however, is harmful: excess nitrogen fertilizers running off upper 
Mississippi Basin farms enable algae in the Gulf of Mexico to grow to 
dangerous levels. As the algae die and decompose, they lower oxygen 
levels in the Gulf (hypoxia), which kills or drives away animal life, 
including commercially important seafood and sport fish. This hypoxic 
``Dead Zone'' forms annually and attracts the attention of the media 
and public. It effects the lower Mississippi / Gulf of Mexico estuary 
region in the following ways:
    <bullet> Ldecreases health and extent of commercial fisheries, an 
industry estimated to be worth $2.8 billion annually in coastal 
Louisiana;
    <bullet> Lincreases growth of certain algae blooms which are 
harmful to marine organisms and humans;
    <bullet> Ldisrupts gulf ecology by eliminating longer-lived species 
and bottom-dwellers, and shifting productivity to non-hypoxic periods 
and places;
    <bullet> Ldecreases recreational fishing opportunities, worth $1.6 
billion annually in coastal Louisiana..
    We do not yet know the optimal quantity of river nutrients needed 
for the ecological health of the Gulf of Mexico, but the efforts of 
H.R. 3480 to address this research need, and its ultimate goal of 
reducing excessive nutrients in the river, are positive benefits from 
the downriver perspective.
2. Dredging
    Under natural conditions, sediments carried by the Mississippi 
River are deposited upon the deltaic landscape during periodic floods 
(thus creating southern Louisiana) or deposited at the mouth of the 
Mississippi River. With the construction of levees for flood control 
starting in the early 1700s, these sediments no longer replenished the 
lands of southern Louisiana, instead accumulating in and along the 
river and eventually at its mouth. As a major commercial waterway 
hosting 400,000,000 tons of traffic annually, sections of the lower 
Mississippi (particularly the passes at the river's mouth) must now be 
dredged repeatedly by the Federal Government for the maintenance of 
shipping lanes. The Army Corps of Engineers districts responsible for 
the river from St. Louis to the mouth have spent an average of 
$84,000,000 annually since 1995 on dredging. In some cases, dredging 
may stir up pollutants bound to sediment particles at the bottom of the 
river. Sediment build-up is also burdensome to flood-control 
infrastructure in Louisiana, particularly the Old River Control 
Structure and spillways, as well as riverside wharves, docks, and 
industries. The monitoring of sediment flux in the upper river, and 
ultimately the reduction of sediment load in the river, are both 
encouraged by H.R. 3480. We perceive these as benefits to the lower 
Mississippi River region.
3. Nonpoint-Source Pollution
    A reduction of sediments and nutrients in the upper Mississippi has 
the parallel benefit of reducing the quantity of pesticides, 
herbicides, agricultural feed stock, household pollutants, chemicals on 
urban surfaces, and bacteria originating from municipal, agricultural, 
and industrial sources. Less sediment means fewer particles to which 
these contaminants can bind. These are all benefits to the lower 
Mississippi River region.
The Cons
    From a lower-river perspective, we view the impact of H.R. 3480 as 
primarily beneficial. We offer these ``cons'' not as problems with the 
bill or concerns about its impact on the lower river, but as 
suggestions which recognize the connectivity of the entire river 
system.
1. Optimal Level of Nutrients Reaching the Gulf
    Further research toward understanding the optimal level of 
nutrients reaching the Gulf of Mexico--so as not to create a ``Dead 
Zone''--can help scientists and managers set realistic targets in 
reducing nutrients in the upper Mississippi. More research is needed in 
this area.
2. Sediment Flux
    That the Mississippi is a vast transporter of eroded sediments to 
the Gulf of Mexico is complicated by its high level of human control, 
especially in its lower half and particularly in its last 200 miles. 
Our work in understanding sediment flux in the lower river will be 
affected by changes in sediment runoff in the upper river. This too 
needs to be further researched. Correlating the lower river's fluxes in 
sediment and depth with changes in the upper river's sediment load can 
aid in our understanding of how this critically important natural 
feature functions.
3. Invasive Species
    Over a decade ago, zebra mussels from the Caspian and Black Seas 
arrived to North America via ballast water dumped by ships in the Great 
Lakes region. Since then, this introduced species has invaded the 
Mississippi River down to New Orleans and beyond, causing significant 
damage to utilities, shipping, and industrial facilities along the 
banks of the Mississippi. Scraping mussels from pipes in the Great 
Lakes region alone costs between $50 to $100 million a year. Here we 
see the Mississippi as a pathway for a biological pollutant, one that 
can be as costly as excess nutrients and sediment. We suggest that H.R. 
3480, with its monitoring and modeling directives, also seize the 
opportunity to study invasive species in the Mississippi River system, 
so that costly invasions may be prevented in the future.
4. Impact on Louisiana's Fresh-Water Diversion Projects
    To reverse the intrusion of salt water upon Louisiana wetlands and 
to combat the state's severe coastal-erosion problem (caused in large 
part by the manmade levees' constriction of the river from depositing 
sediments beyond its banks), Federal and state agencies have 
constructed two major fresh-water diversion projects along the lower 
river in Louisiana, with more planned. Total costs are well in the 
hundreds of millions of dollars. The aim of these immense engineering 
projects is to emulate, as best as modern-day conditions permit, the 
historic tendency of the river to overflow its banks, deposit its 
sediments in the backswamp, enrich the wetlands with its nutrients, and 
push back intruding salt water from the gulf with a plume of fresh 
river water. We suggest that H.R. 3480 provide for scientific 
assessments of the impact of reduced sediment and nutrient loads on 
these fresh-water diversions.
5. A Mississippi River Summit in New Orleans
    Our position on the Mississippi in New Orleans offers us a unique 
perspective of the connectivity of the upper and lower river, not to 
mention its tributaries and sub-basins. We literally live on land 
eroded from the upper basin and drink the water drained from it. In 
this regard, we note to the Subcommittee that the CBR is currently 
creating a National Center for the Mississippi River in New Orleans, 
and is actively partnering (through Memoranda of Understanding) with 
upper-river organizations such the Science Museum of Minnesota, St. 
Louis Science Center, Illinois State Museum, Mississippi River Museum 
of Dubuque, Iowa, the Upper Mississippi River Citizen's Commission of 
Winona, MN, and Mississippi River Basin Alliance. In this spirit, we 
suggest including in H.R. 3480 a ``Mississippi River Summit'' to be 
held at the nascent National Center for the Mississippi River, to 
coordinate research and activities on both the upper and lower river.
Conclusions
    The CBR and LEAG support H.R. 3480. We see in this bill the 
benefits of monitoring and modeling toward the reduction of sediment 
and nutrients in the Mississippi'thus reducing the size, intensity, and 
frequency of the ``Dead Zone'' in the Gulf of Mexico, the need to 
dredge the river, and the quantity of pollution in our water supply. 
But we also stress that upper-river legislation impacts the lower 
river, and that H.R. 3480 can be more effective by addressing the 
connectivity of the entire river. LEAG, as a partnership of government, 
academia, and private groups involved in monitoring and modeling the 
Mississippi River/Gulf of Mexico estuary, is an ideal entity for 
conducting such activity.
    I thank you for this opportunity to testify on behalf of the CBR 
and LEAG.
                                 ______
                                 
    Mr. Walden. Thank you, Doctor.
    We appreciate the testimony of all of our panelists today. 
I am going to start with some questions of Mr. McMillen 
regarding House Resolution 3606.
    Mr. McMillen, I wonder, just looking through the 
information that was provided to me about a project that has 
been going on out there for some time, and the participating 
agencies are numerous on this sheet. Can you tell me about the 
role of the local Bureau of Reclamation has played in your 
discussions and perhaps other Federal agencies too?
    Mr. McMillen. Certainly. That list of participating 
agencies, the local stakeholders organized stakeholder meetings 
and invited all of those agencies, of which the Bureau was part 
of that.
    The Bureau has been involved in conservation fish passage 
projects in the valley since as early as 1984. There was a 
study done in the upper valley looking at consolidation and 
turning ditches into pipelines, those type of things. It was 
about a $20-million project that reached very final stages 
before it was basically put on the shelf because of lack of 
public support.
    We have worked with the Bureau. The Bureau has been in the 
lower valley, the Lostine part of the project, over the last 10 
years, doing the same type of work, conservation of fish 
passage.
    The infrastructure, which is Phase III of this project, 
what it is designed to do is to provide water in the irrigation 
system, leave the Lostine River water in the Lostine for 
Endangered Species. The Bureau has done all of that preliminary 
engineering work. We have not been involved.
    However, that part of the project is not feasible unless 
the dam is rehabbed to provide about 3,500 to 4,000 acre-feet 
of storage for that water exchange. That is what the Associated 
Ditch Companies has already got agreement from their 
participating farmers to permanently allocate that to the 
Federal Government for that water exchange. So there is a 
Federal participation and Federal ownership issue with this, 
and that is in the storage itself.
    So it has been ongoing at the Bureau. The Corps of 
Engineers have been involved, the National Marine Fisheries 
Service. Every Federal agency that has any interest in this 
project was invited and has been in attendance to three 
stakeholder meetings. That started about 2 years ago.
    Mr. Walden. And they are supportive of the concept that you 
have laid out?
    Mr. McMillen. Yes. This project actually falls right in 
line with the biological opinion of the National Marine 
Fisheries Service and the U.S. Fish & Wildlife Service, looking 
for basically off-river mitigation, both for the Bureau and the 
Corps projects. This is a total watershed approach for 
basically protecting and enhancing endangered species.
    Mr. Walden. Have any of these Federal agencies that 
embraced and helped create this plan stepped forward to say we 
will help fund it, in terms of the major element, which is the 
dam restoration?
    Mr. McMillen. No, they have not. The Corps of Engineers was 
approached. They also have funding limitations in their current 
programs. They do have some money available for fish passage. 
We have approached Bonneville Power Administration, and they 
are interested, through their normal funding process of 
providing funding, matching funds, to help with the fish 
restoration aspects, fish passage at the dams.
    Mr. Walden. What about the State of Oregon--since, you 
know, the commissioner referenced that in his testimony, the 
Dam Safety Study that was done there--is the State of Oregon 
stepping forward to help finance this?
    Mr. McMillen. The State of Oregon, back in 1995, when they 
issued, in 1996, they issued a letter basically listing this as 
a high-hazard structure. We brought them in. We actually put 
together a complete funding evaluation, looking at State grant, 
Federal money, everything we could find, and the State has no 
money available for this scale of a project. That was 
evaluated.
    Mr. Walden. So, if you have no State funding and you have 
no Federal funding, what are your prospects?
    Mr. McMillen. We have none.
    Mr. Walden. In terms of even keeping the dam safe?
    Mr. McMillen. No. Because if you look at the cost of being 
able to replace the structure and the payback, it is beyond the 
ability of the agricultural community that is currently there.
    Mr. Walden. Do you know the population of the ag community, 
the patrons in this district?
    Mr. McMillen. The total population in the valley, there are 
400 shareholders that directly pull water out of irrigation, 
there is about another 200 shareholder farmers that get it 
through secondary use.
    Mr. Walden. So maximum is 600 people you estimate--
    Mr. McMillen. Six hundred farmers, yes.
    Mr. Walden. --farmers, $32 million?
    Mr. McMillen. That is correct. Let me clarify a little bit 
on that. The dam rehabilitation, which is Phase I, is about $7 
million, and the rest of it is related to fishery restoration 
and hydropower.
    We did look into trying to do a private financing, look at 
a rate gain, and it is just very difficult, in the current 
agriculture economies, to be able to pay that back.
    Mr. Walden. Thank you. My time has expired.
    Mr. Kind?
    Mr. Kind. Thank you, Mr. Chairman.
    I just want to thank, again, the witnesses for your 
testimony today and for the help that you provided with the 
drafting of the legislation. We worked closely with many of 
you, and we look forward to working closely as this moves 
forward and as we better integrate the planning at all levels 
on what we can do to sustain the river basin.
    Dr. Schnoor, I appreciated the opportunity of co-chairing 
that working group that we had last year in regards to the 
Mississippi through the National Research Council. As you are 
aware, in this legislation it would call for funding of the 
National Research Council, the National Academy of Sciences, an 
assessment of the river basin.
    Could you explain to us the importance of that and whether 
you have had some expertise in this area and other watershed 
areas in providing such an assessment.
    Mr. Schnoor. Yes, we think the assessment is important, and 
the National Research Council is prepared to go ahead with 
that, should H.R. 3480 become law. The National Research 
Council, as you know, is the operating arm of the National 
Academy of Sciences, the National Academy of Engineering and 
the Institutes of Medicine. It was chartered by Congress in 
1863 to advise the Government on matters of science and 
technology.
    We are prepared to go ahead with an assessment of the Upper 
Mississippi River Valley Protection Act, if this passes, 
through the Water, Science and Technology Board, of which I am 
a member.
    Unfortunately, he had another meeting and had to leave, but 
Steven Parker, who is the staff director of that group, was 
here earlier and is very much interested and feels this is a 
strong need of the NRC to do an assessment like this, and the 
chairman of our committee is Richard Luthy from Stanford 
University, and he agrees as well.
    Mr. Kind. What would be the goal of the assessment? What 
would you be trying to produce?
    Mr. Schnoor. We would produce basically a book in about a 
2-year period, six to eight meetings, in which some of the 
Nation's experts in the area of water quality would behold the 
literature and would be brought together as sort of initiation, 
I would say, to all of the research in monitoring and modeling 
required under 3480. So it is kind of a kick-off assessment and 
book of where we stand right now.
    Mr. Kind. Thank you.
    Mr. Daigle, I understand that you recently participated in 
a conference in St. Louis involving many of the shareholders 
that are going to be working to be implement the interagency 
action plan. Was there any discussion or talk about the 
importance of monitoring and getting good models in place in 
regards to the action plan at that conference?
    Mr. Daigle. Yes, that was the meeting of the Gulf Hypoxia 
Task Force, the first time it has been convened under the Bush 
administration, and that was a real key theme that came out 
from people all along the river.
    The representatives of the task force are from Federal 
agencies and the States, and the secretary of the Minnesota 
Pollution Control Agency made a very strong point that she 
supports doing this, but she has got to have the monitoring 
funding. It is just critical for all of the water quality 
groups.
    Mr. Kind. Thank you.
    Ms. Stoerker, you had a chance to listen to Director 
Hirsch's testimony, and he raised a concern in regards to the 
cost sharing that is contained in the legislation. I know you 
had some input in regards to the States' perspective, at least 
given your position there in regards to the cost sharing. Could 
you quickly explain why you think the cost sharing contained in 
this legislation is workable and important.
    Ms. Stoerker. Sure. Two points I think worth making in that 
regard. One is that the States, as many of you are aware, are 
in dire financial straits. Mr. Daigle just mentioned the fact 
that the commissioner of the Minnesota Pollution Control Agency 
made a passionate plea for this program earlier in February. 
She was hoping to be at this hearing, but could not leave the 
State because she has to lay off 150 employees this week.
    The second point I think worth making about cost sharing, 
from the States' point of view, is that the Mississippi River 
is very much a national river, and we have a tremendous Federal 
influence on that river. The Corps of Engineers, a Federal 
agency, needs to dredge, and so forth. So I think there is a 
very unique kind of Federal interest in that system, which does 
not suggest that the States should not come up to the plate and 
participate as cost-share partners. I think they are eager to 
do that. I think that there are going to be some practical, as 
well as kind of public policy, concerns about that.
    Mr. Kind. Thank you.
    And, finally, Dr. McLachlan, I was particularly interested 
in hearing your feedback on this and the support for the 
legislation, given your perspective from the Lower Mississippi 
region. And I believed from the very beginning that we need to 
start dealing with the Mississippi River Basin as one 
continuous ecosystem and start coordinating and managing the 
plans is that we view it as one, continuous, flowing ecosystem. 
And that is probably the best hope we have of seeing 
significant change and improvement in the area, and I 
appreciate your interest in this legislation.
    Could you speak briefly on the importance, in your view, of 
better cooperation and collaboration between the Upper Miss 
region and the Southern Miss region.
    Mr. McLachlan. The Upper and Lower Mississippi is more of a 
political distinction than a real distinction, and everything 
that happens in one part of the river system is expressed in 
the other.
    When I started working in New Orleans 7 years ago, when I 
moved to Tulane--I was in the Federal Government before then--I 
told my mother once, who still lives in Pittsburgh, that 
everything she does I will find out about 2 weeks later, so she 
should be careful.
    [Laughter.]
    Mr. McLachlan. And I think that that is more or less the 
sense of connectedness not only in the ecosystem, but just as 
we have expressed here. Every time people who are working on 
the river get together, we establish other connections, either 
through websites or interactive science museums. So I think 
there is almost a kind of a groundswell of interest in river 
research, river education that was not there really 5 or 6 
years ago.
    I should also say that in terms of our national commitment 
to homeland defense and concern, that most of the academic 
centers studying water have been focused outwardly on 
oceanography, and that in some ways one should start to look 
for strips or a ``Woods Hole'' of the river in the riverine 
systems, which now are so important not only to our defense, 
but really to our livelihood, and I think that one way to do 
that also would be to assure that the USGS budget and the other 
agencies that are so critically involved in river strength and 
maintenance would certainly be kept at a high level.
    Thank you.
    Mr. Kind. Thank you again. I thank all of the witnesses for 
your interest in this and your testimony today. As I said, as 
we move forward with the legislation, I look forward to working 
with you in the future.
    Thank you, Mr. Chairman. That is all I have.
    Mr. Walden. Thank you.
    I also want to thank the witnesses for your valuable 
testimony and Mr. Kind for joining us today.
    The members of the Subcommittee, some of whom obviously 
aren't here today, may have some additional questions they want 
to submit to the witnesses, and we would ask that you respond 
to those in writing. The hearing record will be held open for 
these responses until March 21st of 2002.
    If there is no further business before the Subcommittee, 
the Chairman again thanks the members of the Committee and our 
witnesses, and without objection the Subcommittee now stands 
adjourned.
    [Whereupon, at 11:20 a.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
